<html>
<title> - HHS' OWN SECURITY CONCERNS ABOUT HEALTHCARE.GOV</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
            HHS' OWN SECURITY CONCERNS ABOUT HEALTHCARE.GOV 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 16, 2014

                               __________

                           Serial No. 113-94

                               __________

Printed for the use of the Committee on Oversight and Government Reform

         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                   ------
                         U.S. GOVERNMENT PRINTING OFFICE 

87-352 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 16, 2014.................................     1

                               WITNESSES

Mr. Kevin Charest, Ph.D., Chief Information Security Officer, 
  Department of Health and Human Services
    Oral Statement...............................................     7
    Written Statement............................................    10
Ms. Teresa Fryer, Chief Information Security Officer
    Oral Statement...............................................    17
Mr. Frank Baitman, Chief Information Officer, U.S. Department of 
  Health and Human Services
    Oral Statement...............................................    18

                                APPENDIX

Letters dated Dec. 15, 2013 from the White House, and Dec. 17 
  from this committee, an email exchange on Jan. 15, and a Jan. 
  15th letter to Sec. Sebelius...................................    54


            HHS' OWN SECURITY CONCERNS ABOUT HEALTHCARE.GOV

                              ----------                              


                      Thursday, January 16, 2014,

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:36 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Mica, Turner, Duncan, 
Jordan, Chaffetz, Walberg, Lankford, Amash, Gosar, Meehan, 
DesJarlais, Gowdy, Farenthold, Woodall, Massie, Meadows, 
Bentivolio, DeSantis, Cummings, Maloney, Tierney, Lynch, 
Connolly, Speier, Cartwright, Duckworth, Horsford, Lujan 
Grisham, and Kelly.
    Staff Present: Ali Ahmad, Majority Senior Communications 
Advisor; Richard A. Beutel, Majority Senior Counsel; Brian 
Blase, Majority Professional Staff Member; Will L. Boyington, 
Majority Press Assistant; Joseph A. Brazauskas, Majority 
Counsel; Caitlin Carroll, Majority Deputy Press Secretary; 
Sharon Casey, Majority Senior Assistant Clerk; John Cuaderes, 
Majority Deputy Staff Director; Adam P. Fromm, Majority 
Director of Member Services and Committee Operations; Linda 
Good, Majority Chief Clerk; Meinan Goto, Majority Professional 
Staff Member; Ryan M. Hambleton, Majority Professional Staff 
Member; Frederick Hill, Majority Deputy Staff Director for 
Communications and Strategy; Michael R. Kiko, Majority 
Legislative Assistant; Matthew Tallmer, Majority Investigator; 
Sharon Vance, Majority Assistant Clerk; Rebecca Watkins, 
Majority Director of Communications; Tamara Alexander, Minority 
Counsel; Aryele Bradford, Minority Press Secretary; Susanne 
Sachsman Grooms, Minority Deputy Staff Director/Chief Counsel; 
Jennifer Hoffman, Minority Communications Director; Chris 
Knauer, Minority Senior Investigator; Elisa LaNier, Minority 
Director of Operations; Una Lee, Minority Counsel; Juan 
McCullum, Minority Clerk; Dave Rapallo, Minority Staff 
Director; Valerie Shen, Minority Counsel; Mark Stephenson, 
Minority Director of Legislation; and Cecelia Thomas, Minority 
Counsel.
    Chairman Issa. The committee will come to order.
    The Oversight Committee exists to secure two fundamental: 
first, Americans have the right to know that the money 
Washington takes from them is well spent and, second, Americans 
deserve an efficient, effective Government that works for them. 
Our duty on the Government Reform Committee is to protect these 
rights. Our solemn responsibility is to hold Government 
accountable to taxpayers, because taxpayers have a right to 
know what they get from their Government. We must work 
tirelessly in partnership with citizen watchdogs to provide the 
American people the facts and bring genuine reform to the 
Federal bureaucracy.
    We are here today to ask and examine fundamental questions 
about the security of Healthcare.gov. We recognize best 
practices were not followed. Was securing testing completed 
before the launch to the satisfaction of the experts will be 
asked. What did top information security officials at the 
Center for Medicare Services and the Department of Health and 
Human Services recommend? Were the people who knew about the 
technology empowered? Were the decision-makers people who knew 
about the technology? Did leadership at CMS and HHS follow 
these recommendations? If there was disagreement between people 
below the top, were these questions and concerns properly 
delivered to higher-ups prior to the launch of the site?
    By now the American people are well aware that there were 
functional problems in the Healthcare.gov website at launch. 
Many may know that other websites costing a fraction as much, 
but doing the same thing, worked better. For example, Kentucky 
and Hawaii launched sites that cost the Federal taxpayer about 
one-third as much and seemed to work better.
    Those questions and others need to be asked, but today our 
real question is why does the Administration steadfastly deny 
the existence of security problems and shortcomings and lack of 
security testing, while in fact the experts, Federal employees, 
we hear from today will testify that there were known 
shortcomings and, in fact, unanswered questions at the time of 
the launch.
    For many Americans, myself included, it seems to defy 
common sense that a website plagued with functional problems 
was in fact perfectly secure by design. Additionally, when an 
individual finds himself, while on one website, getting 
information delivered to him by mail acknowledging another 
individual from another State, we certainly know that there 
must be some cross-connect within the system that occurred, and 
that in fact was reported in the days shortly after the launch. 
This and other areas do concern this committee.
    But most important, because we are the Oversight Committee 
for Federal contracting and Federal employees, our 
investigation has been active and attempted to get directly to 
the contractors, such as MITRE, who did an evaluation, that has 
been thwarted by the Administration, who warned and tried to 
interfere with this committee by asking vendors not to deliver 
us information. But through subpoena we have learned that in 
fact there were flaws that were reported. It is now undeniable 
that MITRE and other companies did their job sufficient for 
people to know an alarm was being sounded in the days before 
the launch.
    We have acted to protect the information we received from 
those entities. Notwithstanding that, we have had repeated 
interference and claims that in fact we are the ones that are 
going to disclose a roadmap to hackers. What is so amazing is, 
in fact, the Administration would like you to believe that, 
first, there were no problems; second, any problems that there 
were, even though there were no problems, have been mitigated 
or, as I would quote or paraphrase the Administration, plans to 
mitigate are in place.
    I have been in business a long time before I came to 
Congress. A plan to mitigate means you have not mitigated. 
Therefore, we will assume that any and all information given to 
us about known security risks at the time or prior to the time 
of the launch are still there.
    Our witnesses today, for the most part, cannot refute that, 
because what we discover is they have not been personally 
assured, item by item, of the actual mitigation of those 
shortcomings. As I talk in circles to a certain extent, I do so 
because we continue to hear from the Administration there were 
no problems, the problems have been mitigated, and, oh, by the 
way, if you put out information about the problems others say 
exist, you are creating a roadmap to hackers.
    I don't think anyone can square that; not my ranking 
member, not our witnesses. For that reason, again, this 
committee will continue to look at all reports of alleged 
security shortcomings or unknown areas, as in fact very, very 
important to keep private; and we will do so because we must 
assume that the website is still vulnerable, that the American 
people may, as we speak, be having their personal identifiable 
information hacked and taken, that in fact we cannot consider 
the website secure. If anyone would like to say the website is 
secure today, then I ask would you allow the former flaws to be 
put out there; and the answer, of course, will be no.
    In Washington, people like to talk out of both sides of 
their mouth; they like to say there never was a problem, the 
problem there never was has been fixed, and, in fact, you may 
not put out records of the problems that never were because, in 
fact, they are known vulnerabilities. That is what we are 
facing today as we go into this.
    It would be comical if it wasn't in fact all of your IRS 
records, links to Health and Human Services, of course, but 
links to the Department of Homeland Security and others. This 
website has tentacles into some of the most personal 
information, and in the future even more. More importantly, 
States have links into this same database; and, in fact, one of 
the things we know, which will not be the prime subject today, 
is that the States, for the most part, were not end-to-end 
tested, the States were not held to a standard of best 
practices. My only hope is that, as we look to the billions of 
dollars provided in Federal taxpayer money to the States, that 
in fact consistently they did a better job in both operational 
readiness and security. But that is but a hope. Today's hearing 
will be about the failures or at least the failures to use best 
practices that went into the launch of this site.
    Lastly, in a few minutes I will be putting into the record 
a series of exchanges that went on between the White House and 
the Speaker, between the Secretary of Health and Human Services 
through her surrogates and the chairman; and I will do so 
because I think it is important to understand this is a 
serious, serious hearing. It is one in which the White House 
went to the Speaker of the House warning about the release of 
information and asking that information not be seen, not be 
heard, and not be delivered to this committee. It is one in 
which the secretary said she wanted to meet, again, to me. I 
flew back and she refused to meet with me, even though she was 
in town.
    I am deeply disappointed that we are here today still 
dealing with the inability to deal with what happened prior to 
October 1st, what has happened since October 1st, and I think 
most importantly a committee that on a bipartisan basis 
supports real reforms, real reforms that in many cases would 
have mitigated or eliminated some of the mistake made and would 
have allowed the President's signature legislation to not be 
marred by a website that failed to perform at its launch and is 
still questionable in its security.
    Lastly, I certainly want to make sure that we all 
understand the American people know that companies have been 
hacked, that credit card information has been taken. It has 
been widely publicized. The difference between Target and other 
companies who dealt with hackers is we don't have to put our 
credit card into that machine at Target, we don't have to 
deliver that information; we have the choice of paying cash, we 
have the choice of not registering. We do not, no one on this 
dais has the ability to say I won't go into Obamacare; it is 
mandated by a law that I did not vote for, that the American 
people did not agree with, but went forward anyway on a purely 
partisan basis.
    Mr. Lynch. Mr. Chairman?
    Chairman Issa. So, therefore, I want to make it very clear 
we take serious that the standard for security on the 
Government side must be higher, and today's witnesses will help 
us begin the process of understanding how it could be higher.
    I now recognize Mr. Cummings for his opening statement.
    He is not recognized. The gentleman from Maryland is 
recognized.
    Mr. Lynch. Mr. Chairman, I just want to raise a point of 
order.
    Chairman Issa. The gentleman----
    Mr. Lynch. Are we going to balance out the time?
    Chairman Issa. The gentleman is not recognized. The 
gentleman is not in order.
    Mr. Lynch. I don't care to be recognized at all.
    Chairman Issa. The gentleman is not recognized.
    Mr. Lynch. You have gone on for 15 minutes. I am just 
asking for a point of order.
    Chairman Issa. The gentleman is not in order. Mr. Cummings 
is recognized.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    You are absolutely right, this is a very, very serious 
hearing. But I think we need to be very careful and be reminded 
that we have 110 million Americans, our constituents. You say 
they could use cash at Target. A lot of them don't have cash 
because they don't have jobs. Give me a break.
    It is good to be here this morning. Today is the twenty-
second hearing our committee has held on the Affordable Care 
Act. Twenty-two. We have spent more time on this one issue over 
the past three years than any other topic.
    Mr. Chairman, I agree, we want to get this right. This is 
so very, very important. The consequences of what we do affect 
all of our constituents, and there are people watching us right 
now who are suffering from dreadful diseases who are praying 
and hoping that we get it right. And I am determined to work 
hard with you to make sure that happens. But I am concerned 
about them, but I am also concerned about this 110 million of 
our constituents who have been placed in a vulnerable position 
with regard to their Target credit cards; and I am going to go 
further on that a little bit later.
    So where are we today? The law that went into full effect, 
hello, full effect, on January 1st and now millions of people 
are getting health insurance they did not have before. They are 
receiving critical medical care; they have the security of 
knowing they will not be bankrupt if they get into an accident 
or get sick. But there is something more important or just as 
important as all of that: even under those circumstances, they 
are allowed to live in dignity. Dignity. That is what our 
Nation is all about, lifting up each other so that we all live 
in dignity. So this is a phenomenal accomplishment.
    The law also put into place key protections for consumers, 
and I am so glad it did. I am so glad. Insurance companies are 
now prohibited from discriminating against people with cancer, 
our constituents, diabetes and other preexisting conditions, 
our constituents, both Republican and Democrat, both rural and 
urban. Insurance companies may not charge higher prices for 
women, and millions of people are now receiving free 
preventative care. That is so important. It is cheaper to keep 
somebody well than to treat them after they are sick. There are 
also huge financial benefits.
    Health insurance companies are now sending rebate checks to 
millions of people. Since the law was passed, we have seen the 
lowest growth in healthcare costs in 50 years. If we repeal the 
law today, it would increase our deficit by more than $1.5 
trillion.
    Despite all of these positive results, Republicans are 
still obsessed with killing this law. After more than 40 votes 
in the House, they shut down the Government in an unsuccessful 
attempt to de-fund the law. Now they have shifted to a new 
tactic. This is brand new, hot off the press: scaring people 
away from the Healthcare.gov website.
    Everyone agrees that initially the website's performance 
was seriously flawed. Our committee has a legitimate interest 
in investigating contractor performance and agency oversight, 
and we have held multiple hearings on this topic already.
    But let me pause here for a moment. I am just reminded of 
what Emerson said, a favorite quote of Mandela. He said do not, 
do not be in fear and fail to act because of your fears and 
your problems, but be led by your hopes and your dreams. And 
this is about the hopes and the dreams of Americans to stay 
well, to make sure that their children are well, to make sure 
that if they get sick they don't have to go into bankruptcy. 
That is what this is all about.
    And that is why you are right, Mr. Chairman, this hearing 
is serious, because it has consequences. In terms of security 
of the website, however, it is important to highlight all of 
the facts, instead of cherry-picking, I said it, cherry-picking 
partial information to promote a political narrative that is 
inaccurate. Based on the documents we have reviewed, and when I 
say we, I mean Republicans and Democrats, and the interviews we 
have conducted, I believe we can establish several key facts.
    Number one, although some employees expressed concerns with 
security testing before this website was launched, the agency 
addressed these risks by implementing a strong mitigation plan 
as part of the Authority to Operate memo that was issued on 
September 27th.
    Second, since that time the agency has complied 
successfully with the mitigation plan. The agency has now 
compelled full end-to-end security testing of the system and it 
addressed specific issues that arose in a timely manner.
    Third, witnesses interviewed by the committee have praised 
the current level of security testing. They have described 
multiple layers of ongoing robust protections that meet, and in 
some cases exceed, Federal standards. As Ms. Fryer put it 
during her interview, the agency is using--and these are your 
words, Ms. Fryer; correct me if I am wrong--Ms. Fryer said, she 
is one of our witnesses, she said that the agency is using 
``best practices,'' Mr. Chairman, ``above and beyond that which 
is usually recommended.'' So, Ms. Fryer, I hope you clear that 
up. Make it clear to us where you stand.
    Finally, most importantly, to date there have been no 
successful attacks on Healthcare.gov by domestic hackers, 
foreign entities, or others who seek to harm our national 
security. Nobody's personal information has been maliciously 
hacked.
    Now, we need to be careful. Obviously, this could change, 
given the increasing frequency and sophistication of attacks 
against all Federal IT systems. But the evidence obtained by 
our committee, and when I say our committee I mean Republicans 
and Democrats, indicates that the security of Healthcare.gov is 
strong and it keeps getting stronger.
    In very sharp contrast, up to 110 million Americans were 
subjected to one of the most massive information technology 
breaches in history when their credit, debit, and other 
personal information was compromised at Target stores and 
online in November and December.
    Mr. Chairman, I sent you a letter on Tuesday requesting a 
hearing on the Target breach, and I understand you have agreed 
to have our staffs meet on this issue next week, and I thank 
you for that. If our committee can hold dozens of hearings on 
the Affordable Care Act and on Healthcare.gov, which has not 
been successfully attacked to date, surely we can hold at least 
one hearing at the earliest possible date on the massive Target 
breach that affected more than 100 million of our constituents.
    As I close, I want to close by thanking Dr. Charest. You 
have been pulling double duty, providing multiple classified 
briefings to Congress in addition to your day job. We thank 
you.
    Ms. Fryer, your name has been thrown around on the House 
floor, when I am sure you have heard about it, but you have 
your opportunity today to clarify whatever it is you have to 
say.
    And, Mr. Baitman, after finishing a day-long interview less 
than 36 hours ago, you were handed a letter inviting you to 
testify here today, and we thank you.
    I want you all to know that we appreciate everything you 
and your staffs are doing to remain vigilant and constantly 
monitor the security of the website. Millions of American 
families thank you for helping them.
    With that, Mr. Chairman, I thank you and I yield back.
    Chairman Issa. I thank the gentleman.
    I now ask unanimous consent that letters dated December 
15th, 2013, from the White House; December 17th from this 
committee; an email exchange January 15th; and a letter to 
Secretary Sebelius on January 15th be placed in the record and 
copies be made and distributed. Without objection, so ordered.
    Chairman Issa. All members may have seven days in which to 
submit their opening statements and other information.
    We now welcome our panel of witnesses.
    Mr. Kevin Charest, Ph.D., is the Chief Information Security 
Officer at the Department of Health and Human Services; Ms. 
Teresa Fryer is the Chief Information Security Officer at the 
Centers for Medicare and Medicaid Services, which will 
undoubtedly be called CMS throughout the hearing; and Mr. Frank 
Baitman is the Deputy Assistant Secretary for Information 
Technology and Chief Information Officer at the Department of 
Health and Human Services, and, again, I thank you for back-to-
back appearances.
    Pursuant to the committee rules, would you please rise, 
raise your right hand to take the oath?
    Do you solemnly swear or affirm the testimony you are about 
to give will be the truth, the whole truth, and nothing but the 
truth?
    [Witnesses respond in the affirmative.]
    Chairman Issa. Please be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    In order to deal with a fairly short period of time--one of 
our witnesses has a hard stop at 12, which we are going to very 
much try to respect, and we are likely to have a vote more or 
less at that time--I want to announce that I will ask you to 
stay within that five minute opening statement, and I will be 
very strict on the gavel today, which is not the history of 
this committee.
    So we want everyone to ask their question and complete 
their questions well prior to five minutes. I won't cut off a 
witness answering a question, but I will cut off exactly at 
five minutes a question that is droning on, and I will curtail 
the answer of questions if, in fact, it is unable to be 
answered within a short period of time. And I say this because 
I want to get through all the people on the dais and allow our 
witnesses to leave timely.
    Additionally, if witnesses need to excuse themselves for a 
short period of time, please just go ahead, signal to the 
clerk, do it, and use the facilities back here.
    Other than that, Mr. Charest, you are recognized.

                       WITNESS STATEMENTS

               STATEMENT OF KEVIN CHAREST, PH.D.

    Mr. Charest. Good morning, Chairman Issa, Ranking Member 
Cummings, and members of this committee. My name is Kevin 
Charest and I am the Chief Information Security Officer for the 
United States Department of Health and Human Services.
    The Department of Health and Human Services is the United 
States Government's principal agency for protecting the health 
of all Americans, providing essential human services, 
especially for those who are least able to help themselves. The 
HHS Office of the Secretary and the Department's 11 operating 
divisions administer more than 300 programs, covering a wide 
spectrum of activities.
    The Office of the Chief Information Officer, in which I 
serve, is a part of OS. Our responsibility as one of the staff 
divisions of OS is to manage programs within OS and support the 
11 operating divisions in carrying out their various and 
diverse missions. It is important to point out, however, that 
we manage the Department's information technology portfolio 
through a federated governance structure. The vast majority of 
the Department's IT resources are tied directly to the 
appropriations and statutory authorities Congress provides 
directly to our programs and operating divisions. Our 
governance authorities at the OS level reflect that federated 
structure. Thus, many of HHS's operating divisions have their 
own chief information officer, chief information security 
officer, and IT management structure. The exception of this 
rule is in OS, where the Department's CIO and CISO perform 
those responsibilities.
    HHS's enterprise-wide information security and privacy 
program was launched in fiscal year 2003 to help protect HHS, 
including its operating divisions, against potential 
information technology threats and vulnerabilities. The program 
ensures compliance with Federal mandates and legislation, 
including the Federal Information Security Management Act. 
Under my leadership, I have established a framework for 
operating divisions to regularly report incidents involving IT 
security to my office. Operating divisions routinely report 
potential information security incidents to the HHS Computer 
Security Incident Response Center, which I oversee.
    In addition to our internal investigation of all IT 
security incidents, we report all such incidents to the 
Department of Homeland Security's Computer Emergency Readiness 
Team at DHS's National Cybersecurity and Communications 
Integration Center. Through US-CERT's operations center, US-
CERT accepts, triages, and collaboratively responds to 
incidents; provides technical assistance to information system 
operators; and disseminates timely notifications regarding 
current and potential security threats and vulnerabilities. For 
reference, in fiscal year 2013, US-CERT processed approximately 
228,700 cyber incidents, an average of more than 620 per day, 
including Federal agencies, critical infrastructure, and 
industry partners.
    It is important to note that HHS operates a defense-in-
depth strategy for protecting its assets in accordance with 
guidance issued by the Office of Management and Budget and the 
National institute of Standards and Technology, which has been 
reflected in HHS's information security policy. This strategy 
includes the use of a risk-based approach to authorizing 
systems to operate, a robust set of technologies for continuous 
monitoring of systems, standards and minimum requirements for 
systems, as well as the appropriate business processes and 
controls to ensure the confidentiality, integrity, and 
availability of all HHS IT assets.
    Consistent with these policies, CMS reports actual or 
suspected computer-security incidents in connection with 
Healthcare.gov to the CSIRC. The reports are based on the 
operational security protections CMS has in place to deter and 
prevent unauthorized access, and weekly penetration testing and 
security scans of the system. CMS's chief information security 
officer and its information system security officer are 
responsible for designing and maintaining a security program to 
mitigate any risks identified in accordance with FISMA.
    Additionally, building on Federal guidelines and 
regulations, and in conformance with industry standards, HHS 
has dedicated teams of career experts, including officials from 
the Office of the Chief Information Officer, the Office of 
Inspector General, Office of Civil Rights' Privacy Office, the 
CSIRC and key operating divisions who work around the clock to 
identify, manage, and mitigate suspected or potential breaches 
of PII.
    In carrying out their work, those teams abide by HHS's PII 
Breach Response Team Policy, published in 2008, and HHS's 
Privacy Incident Response Team Charter, published in 2011. HHS 
security and privacy experts work with appropriate Federal 
Government and industry professionals to do the following: 
validate risk and review and approve response plans; review and 
approve communications or notice to affected individuals 
perform analysis on data in order to recommend strategies to 
effectively refine and improve the Department's response to the 
potential loss of PII; implement privacy and security solutions 
that can reduce the potential loss of PII; and, finally, 
monitor the privacy and security environment to raise awareness 
of threats to PII within the Department.
    If the team determines that notification of a breach is 
warranted, the operating division coordinates through the PIRT 
to send letters to the affected consumers or businesses, 
informing them of the breach.
    I appreciate the opportunity to meet with you today and 
discuss your interest in the Federal Government's IT security 
practices.
    [Prepared statement of Mr. Charest follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. Thank you.
    Ms. Fryer?

                   STATEMENT OF TERESA FRYER

    Ms. Fryer. Chairman Issa, Ranking Member Cummings, and 
members of the committee, thank you for the opportunity to 
speak about my role in protecting the security of the 
Federally-Facilitated Marketplace, also known as FFM. As a 
career civil servant, I have decades of experience in 
information security not only at CMS, but also at NASA, the 
U.S. Fish and Wildlife Service, Office of Personnel Management, 
and 20 years at security positions in the Navy. In my current 
role as Chief Information Security Office for CMS, my 
responsibilities include issuing CMS information security 
policy; ensuring the CMS systems comply with applicable laws 
and regulations; and providing oversight to maintain the 
confidentiality, integrity, and availability of all CMS 
information and information systems.
    CMS has a long track record of successfully securing and 
protecting almost 200 complex IT systems related not only to 
FFM, but also to Medicare, Medicaid, and the Children's Health 
Insurance Program. In my role as CISO at CMS, I lead the team 
that is responsible for overseeing the independent security 
control assessments of CMS systems, including the FFM. These 
are conducted to assess the effectiveness of the security 
controls that CMS has implemented in the agency's information 
systems.
    Independent security contractors completed a security 
control assessment of the FFM on December 18th, with no open 
high findings. This security control assessment met all 
industry standards, was an end-to-end test, and was conducted 
in a stable environment and allowed for testing to be completed 
in the allotted time. Given the positive results of the recent 
security controls assessment, the ability to complete 
comprehensive security testing and a mitigation plan in place, 
I would recommend the FFM to be given a new Authority to 
Operate when the current authority expires in March.
    The FFM authorization to operate that is currently in place 
has s a number of strategies to ensure the FFM is protected 
against attacks and mitigates risk, including regular testing 
that exceeds best practices and a requirement to perform a full 
security controls assessment within 90 days of a launch. The 
risk mitigation strategies and compensating controls that were 
prescribed are being implemented and executed as planned. The 
protections that we have put in place have successfully 
prevented attacks. There have been no successful security 
attacks on the FFM and no person or group has maliciously 
accessed personally identifiable information.
    As part of this mitigation plan, CMS established a 
dedicated security team, of which I am a member, to monitor, 
track, and ensure the activities in the ATO memo are completed. 
This team is responsible for the weekly testing, aborted 
devices, and Internet-facing web service and scans using 
continuous monitoring tools. Ongoing vulnerability assessments 
of the FFM network infrastructure and Internet-facing web 
service are conducted through penetration testing, which 
involves simulated attacks to breach the security defense of 
the website and continuous monitoring of marketplace-related 
systems to alert security professionals of any new 
vulnerabilities that may exist due to recent changes or 
maintenance. Information from these tests has enabled us to 
prevent any successful attacks on the FFM.
    While no serious security professional would ever guarantee 
that any system is hack-proof, I am confident, based on the 
recent security controls assessment and the additional security 
protections in place, that the FFM is secure. In many instances 
we have gone above and beyond what is required with layered 
protection, continuous monitoring, and additional penetration 
testing. CMS takes system security very seriously. My job is to 
anticipate and detect any possible security threat to our many 
systems, no matter how small. We continue to carry out this 
responsibility, protecting the FFM to ensure that consumers can 
use the system with confidence that their personal information 
is secure.
    Thank you, and I am happy to take your questions.
    Chairman Issa. Thank you. Because we were not provided your 
opening statement, what date was that security assessment that 
causes you to recommend completed?
    Ms. Fryer. It was completed on December 18th.
    Chairman Issa. December 18th.
    Ms. Fryer. I am sorry. Yes, it was completed December 18th.
    Chairman Issa. Thank you.
    Mr. Baitman.

                   STATEMENT OF FRANK BAITMAN

    Mr. Baitman. Good morning, Chairman Issa, Ranking Member 
Cummings, and members of the committee. My name is Frank 
Baitman and I am the Deputy Assistant Secretary for Information 
Technology and the Chief Information Officer at the U.S. 
Department of Health and Human Services.
    While I appreciate the committee's interest in 
Healthcare.gov, as you know, two days ago I spent eight hours 
in a transcribed interview with committee staff and with you 
and Representative Jordan, respectively, answering your 
questions. I received the committee's invitation to testify at 
today's hearing approximately 36 hours ago, at the close of 
Tuesday's transcribed interview. I will do my best to answer 
any questions you may still have, given the minimal time that I 
have had to prepare.
    I would like to make clear to the committee the role of my 
office, that is, the Office of the Chief Information Officer 
for the Department of Health and Human Services in 
Healthcare.gov. I personally, and my office generally, have 
very little visibility into the development and operational 
oversight for the website. The Department manages its IT 
portfolio through a federated governance structure. Most of 
HHS's operating divisions have their own chief information 
officer and chief information security officer, one of whom is 
with us today, as well as their own IT management structure. 
The vast majority of the Department's IT resources are directly 
tied to appropriations made to our programs and operating 
divisions, and our governance structure reflects this reality.
    Management and governance of Healthcare.gov was comparable 
to the management of similar IT initiatives throughout the 
Department's 11 operating divisions. And as with Medicare.gov 
and Medicare Part D prescription drug program, the development 
and security of Healthcare.gov website has been led by CMS, 
which is the business owner for the system. Neither I nor my 
office had operational control over or responsibility for 
Healthcare.gov.
    Since I jointed the Department less than two years ago, we 
have been working to restructure and update our IT governance 
to bring greater visibility into what the Department buys and 
builds across all of our 11 operating divisions. We are in the 
process of putting in place three It steering committees to 
bring together technology and program leaders from across the 
Department to improve our purchasing and management of 
information technology resources.
    With respect to Healthcare.gov specifically, I would like 
to reiterate something that I have described to the committee 
on a number of occasions during my transcribed interview on 
Tuesday: Any discussions that I had regarding the rollout and 
launch of the website were based upon my past experiences in 
the private sector and the practices of tech companies that are 
often used. I did not have any personal, direct, or detailed 
knowledge of the development or security of the website, so it 
would not have been appropriate for me to make recommendations 
on operational decisions and, accordingly, I did not. As I also 
said in response to the committee's questions, it is totally 
appropriate and consistent with NIST guidelines that 
operational decisions about the technical aspects of 
Healthcare.gov be made by the administrator of CMS because of 
that individual's ability to broadly assess the acceptable risk 
for operating the system.
    I am happy to answer any questions you may have, Chairman.
    Chairman Issa. Thank you.
    Ms. Fryer, I am going to take you through a couple of quick 
slides here. They are all from the report that was not 
published. As they put up the side, these particular slides 
were provided to us after we initially interviewed you, and 
this was a memo never sent. Would you please tell us why this 
memo was never sent?
    Ms. Fryer. So this was a memo that I initially was drafting 
to send to the chief information officer----
    Chairman Issa. Right. And you chose not to send it because 
of?
    Ms. Fryer. Because events had taken place the next week 
with the chief information officer drafting the risk decision 
memo.
    Chairman Issa. In other words----
    Ms. Fryer. So it was overcome by events.
    Chairman Issa.--events--okay. But it is still a good one 
for us to look at because it is consistent with your 
recommendations and your thought at the time.
    So in slide 1 of the draft, you wrote, FFM does not 
reasonably meet the CMS security requirements which are 
intended to minimize CMS business risk. Is that correct?
    Ms. Fryer. During the security assessment that was 
conducted in September, the security testing was not able to be 
completed; they weren't able to test completely----
    Chairman Issa. But these are your words.
    Ms. Fryer. Yes.
    Chairman Issa. Okay. Additionally, you said there is also 
no confidence that personal identifiable information will be 
protected, correct?
    Ms. Fryer. Again, there was security testing----
    Chairman Issa. But these are your words.
    Ms. Fryer. I drafted this initial memo.
    Chairman Issa. Okay. And these are consistent with what you 
were saying in meetings in the September 20th time frame.
    Ms. Fryer. This memo was capturing the briefing that we had 
given to Mr. Charest and Mr. Baitman and the CIO.
    Chairman Issa. Okay. So the other two witnesses knew that 
these are your words, but in a paraphrased what you told them. 
There is also no confidence that personal identifiable 
information will be protected. This is in slide 1A.
    Ms. Fryer. Again, it was the results of the securing 
testing that had occurred.
    Chairman Issa. Okay. So in slide 1B you wrote, the 
independent assessor was forced to test different modules in 
multiple environments. In other words, no end-to-end, as it was 
going to be launched testing, correct?
    Ms. Fryer. Yes.
    Chairman Issa. Okay. In slide 1C you wrote, complete end-
to-end testing of FFM never occurred. That is correct, right?
    Ms. Fryer. Yes.
    Chairman Issa. And that is best practices, of course, 
right?
    Ms. Fryer. Yes.
    Chairman Issa. And you now testified in your opener that on 
December 18th end-to-end testing was completed and that is why 
you now have confidence that at least the snapshot of the site 
as it was that day would meet the requirements, subject to 
additional changes that occur in maintenance and modification, 
right?
    Ms. Fryer. On the testing that was conducted on December 
18th, yes.
    Chairman Issa. Okay. In slide 1C you wrote, the majority of 
the testing efforts were focused on testing the expected 
functionality of the application, not security, is that 
correct?
    Ms. Fryer. Yes.
    Chairman Issa. Okay. Again, in slide 1C you wrote, several 
factors contributed to the limited effectiveness of the SSA 
modules and their interconnects. Can you expect that this could 
be a problem? And I guess in 1C you are saying yes, you are 
concerned about that area, is that right?
    Ms. Fryer. Again, this was a memo that I was drafting; I 
didn't complete it, so some of these things hadn't been done.
    Chairman Issa. Okay. Slide 1C also says, valid test data 
was not provided prior to testing to give the true environment, 
correct?
    Ms. Fryer. Yes. Normally, it is put into the system for the 
security testers beforehand, so it doesn't delay testing.
    Chairman Issa. So it is common to get real data, or at 
least data that is substantially real in both size and in cells 
and information in order to do a real assessment, and that 
wasn't done, is that correct?
    Ms. Fryer. Test data was put into, yes, it was just a delay 
in getting the test data put into the system.
    Chairman Issa. Okay. So the two witnesses here were aware 
of essentially this information when you made your 
recommendation that it basically wasn't ready to launch, or at 
least you were uncomfortable with whether or not it was ready 
because of the lack of end-to-end testing and the like, is that 
correct?
    Ms. Fryer. My responsibility as the chief information 
security officer is to give an assessment to the chief 
information officer on the risks that were discovered during 
independent testing.
    Chairman Issa. And Mr. Charest, of course, was aware of 
this, plus had independent knowledge.
    Mr. Baitman, yesterday in testimony you told us that you 
recommended a less than full rollout in a meeting, I believe 
September 10th, essentially saying with the problems and so on, 
best practices, in your opinion, would have been to roll out a 
portion of this rather than the size and scope that was rolled 
out on October 1st. You didn't characterize it completely as a 
recommendation, but it was certainly something you put out. In 
retrospect, would you prefer that to have been the way this 
site launched, in other words, more like a beta, in order to 
mitigate what we now know was pretty much a bad launch?
    Mr. Baitman. Well, as you point out, Mr. Chairman, it 
wasn't actually a recommendation; it was a discussion topic for 
the meeting, and it was based upon my experience in the private 
sector, having seen this being done elsewhere. Sometimes it is 
referred to as a beta launch, a controlled, measured launch. In 
retrospect, I don't know that I can say because I didn't have 
direct knowledge of the system, the operational, development 
issues.
    Chairman Issa. Thank you.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Over the past few months, House Republicans have made a 
number of extraordinarily unfounded claims about the security 
of Healthcare.gov. This scare tactic appears to be part of a 
coordinated campaign to frighten people away from 
Healthcare.gov's website. I want to make sure we separate fact 
from fiction today and tell the American people the whole 
truth.
    I would like to go down the line with each of you and ask 
whether there have been any successful security attacks against 
the website.
    Dr. Charest, let me start with you. You oversee HHS's 
Incident Response Team, is that right?
    Mr. Charest. Yes, sir.
    Mr. Cummings. So if there is an attack on Healthcare.gov, 
you would know about it, is that right?
    Mr. Charest. Yes, sir.
    Mr. Cummings. Dr. Charest, to date, I want you to look at 
me, now, has there been a single successful security attack 
against Healthcare.gov by a domestic hacker, foreign bad actor, 
or any other malicious individual group?
    Mr. Charest. No, sir, there have been no reported attacks 
of any type of any malicious intent, either domestic or 
foreign.
    Mr. Cummings. Mr. Baitman, let me turn to you. You are the 
chief information officer at HHS. My constitutes and our 
constitutes are looking at you, they are depending on your 
information. Have there been any successful attacks against the 
website?
    Mr. Baitman. There have been no reported successful attacks 
against the website.
    Mr. Cummings. Ms. Fryer, you are the chief information 
security officer for CMS. Have there been any successful 
attacks against the system?
    Ms. Fryer. No, there have been no successful attacks.
    Mr. Cummings. So you all agree that over the past three and 
a half months, since the website has been live, there have been 
no successful attacks against the Healthcare.gov website, and I 
think that this is a very, very critical point.
    Last November the CIO of Foreground Security testified 
before the House Energy and Commerce Committee, and this 
company is one of the contractors that conducts continuous 
security monitoring of the website. The CIO testified that 
nobody could guaranty with 100 percent certainty that 
Healthcare.gov was secure from external hackers. Do you all 
agree with that?
    Mr. Charest. Yes, sir.
    Ms. Fryer. Yes, sir.
    Mr. Baitman. Yes, I do.
    Mr. Cummings. And he stated this, he said, ``I also would 
say the same thing about Facebook or any banking website as 
well.''
    Dr. Charest, Mr. Baitman, during your interviews with the 
committee staff, you told us that you agree with this 
statement. You have both worked in the private sector. Can you 
both explain why Healthcare.gov is no more risky than 
commercial sites like Facebook? Mr. Charest.
    Mr. Charest. Yes, sir. So, in essence, there are always 
vulnerabilities, there are a number of vulnerabilities. All of 
these sites rely on underlying infrastructure, third-party 
softwares. All of these variables coming together create an 
environment which can be compromised, candidly, at any time, so 
you have to be vigilant. As the defender, we have to defend 
against every possible attack and the attacker, in essence, has 
to find the one way in which we have not defended. So they are 
all always at some level of risk.
    Mr. Cummings. Now, Mr. Baitman, would you have anything to 
add to that or do you agree or disagree?
    Mr. Baitman. I agree. No site is perfect, and we need to be 
vigilant, which is why we have layers of security.
    Mr. Cummings. Now, although there have been no successful 
attacks against Healthcare.gov to date, we have to keep in mind 
that there are constant attempts by malicious individuals and 
groups, both domestic and foreign, to attack large complex 
Government IT systems. We are all concerned about that, both 
Republicans and Democrats. We have to remain one step ahead of 
the actors.
    I thank you for clearing all of this, the confusion that 
may have occurred. Our job is to ensure that the American 
people have accurate information so they are not wrongfully 
deterred from obtaining the critical healthcare coverage they 
need and deserve.
    Now, I want to go to you just very briefly, Ms. Fryer. The 
chairman asked you some questions and I just want to summarize 
as I close. I want to make sure that I have this right, so let 
me ask you a series of very basic questions. The draft 
memorandum that he talked about, you are familiar, right?
    Ms. Fryer. Yes.
    Mr. Cummings. Did you ever send the memorandum to anybody.
    Ms. Fryer. No, I didn't.
    Mr. Cummings. Anybody?
    Ms. Fryer. No, I did not, sir.
    Mr. Cummings. You never sent it to your boss, Mr. Trenkle?
    Ms. Fryer. No, sir.
    Mr. Cummings. You never sent it to Administrator Tavenner?
    Ms. Fryer. No, sir.
    Mr. Cummings. So you never pressed the Send button.
    Ms. Fryer. No, sir.
    Mr. Cummings. During your interview with the committee 
staff, you explained that you stopped working on the memo and 
put it aside after you found out that your superiors were 
moving forward with the December 27th ATO, which included the 
mitigation measures we have been discussing, is that right?
    Ms. Fryer. Yes, sir.
    Mr. Cummings. And did you ever finalize your draft memo?
    Ms. Fryer. No, sir.
    Mr. Cummings. So you never finished it.
    Ms. Fryer. No, sir.
    Mr. Cummings. Do you know if all of the information in the 
memorandum is accurate?
    Ms. Fryer. No, sir. I was still validating the information.
    Mr. Cummings. Very well.
    Thank you very much, Mr. Chairman.
    Chairman Issa. Thank you.
    Mr. Mica.
    Mr. Mica. Just a commentary. I heard the ranking member 
start out. I am as concerned. I came from a family that didn't 
have healthcare at times in our life, and there are 42 to 45 
million Americans that don't have healthcare, and yet we have 
rolled out a flawed system. Everyone from the President of the 
United States to members of Congress on both sides of the aisle 
said the rollout, from a technical standpoint, was a meltdown 
and a fiasco. That was accessing it.
    We signed up about a million people. I am one of the 
unwilling participants in that and others had no other choice, 
really, but we knocked six million people off of their 
healthcare system. This is a great record of success. And we 
probably left 41 to 44 million people still without healthcare. 
So I just had to comment when I heard that.
    Ms. Fryer, you did in fact draft this memo of the 24th, 
right?
    Ms. Fryer. Yes, sir.
    Mr. Mica. That was up there. Yes. And it said that this 
platform basically doesn't reasonably meet the CMS security 
requirements which are intended to minimize CMS business risk, 
enterprise risk, or the application risk. There is also no 
confidence that the personal identifiable information will be 
protected. You wrote that on the 24th, right?
    Ms. Fryer. Yes.
    Mr. Mica. The 27th, what happened? Ms. Tavenner, didn't she 
sign the Authority to Operate? On the 27th she signed the 
Authority to Operate. Is that the event that overcame this? You 
wrote the memo. Who did you share the contents of this memo, 
that there wasn't assurance when this was rolled out? It is bad 
enough the thing wouldn't work from a technical standpoint or 
millions of people who wanted healthcare couldn't access the 
system. In fact, I was served by a waitress the other day and 
she says, I wanted to get on it; I still don't have it because 
I couldn't access it. But it was flawed from the standpoint of 
being able to access it or work from an operational standpoint, 
right? At least initially, right?
    Ms. Fryer. My responsibility was to brief my management and 
the chief information officer.
    Mr. Mica. You are security, but you wrote that it wasn't 
ready for prime time rollout for security, right? And then you 
said events that overtook this. Well, the event was, in fact, 
that Tavenner, she signed the ATO. Did you sign the ATO?
    Ms. Fryer. No, I did not. It is not my responsibility.
    Mr. Mica. In fact, I saw at the end of the ATO you put a 
little caveat to protect your rear end, kind of, you put this 
paragraph at the end of the ATO, didn't you?
    Ms. Speier. Mr. Chairman?
    Ms. Fryer. My responsibility is to brief the CIO on its 
face.
    Chairman Issa. The lady will suspend. The gentleman will 
suspend.
    Ms. Speier. Mr. Chairman, I would like to suggest that we 
all----
    Chairman Issa. No, the gentlelady will state her point of 
parliamentary inquiry, please.
    Ms. Speier. Personal privilege.
    Chairman Issa. Point of personal privilege. Please state 
it.
    Ms. Speier. Mr. Chairman, I think that we should show 
respect to the persons who are----
    Chairman Issa. That is not a point of personal privilege. 
Please state a point of personal privilege.
    Ms. Speier. Well, I am offended by the fact that----
    Chairman Issa. Okay, if the gentlelady can organize an 
actual procedural request, we will reconsider it at that time.
    The gentleman may continue.
    Mr. Mica. Well, I understand, and, again, protecting 
yourself, I may have used a term that some member found 
offensive, but protecting your rear end, everybody knows it 
around here.
    Ms. Fryer, last December you testified to the committee 
that prior to the October 1st launch you recommended again to 
deny the exchange's Authority to Operate, also known as the 
ATO, which is a document necessary to the website for the 
record. Is that accurate?
    Ms. Fryer. Yes.
    Mr. Mica. Why did you make this recommendation?
    Ms. Fryer. The testing in September, there were some issues 
that were encountered during the testing, so there was a level 
of uncertainty as to the known risk.
    Mr. Mica. Who did you make the recommendation to?
    Ms. Fryer. My responsibility is to make the recommendation 
to my management and the chief information officer of CMS.
    Mr. Mica. Okay. Ms. Fryer, you also testified that you 
communicated your recommendation to Mr. Trenkle and he shared 
your concerns, is that correct?
    Ms. Fryer. Yes.
    Mr. Mica. Did he sign the Authority to Operate, again, the 
ATO?
    Ms. Fryer. No, he did not.
    Mr. Mica. He did not. When did you learn Mr. Trenkle was 
also not comfortable enough to sign the ATO?
    Ms. Fryer. It was probably during our conversation, during 
the security testing, when there were problems that were being 
encountered.
    Mr. Mica. So that was earlier.
    Ms. Fryer. And on September 20th, when I briefed him, Mr. 
Trenkle, and Mr. Baitman and----
    Mr. Mica. Did Mr. Trenkle tell you why he decided not to 
sign the ATO?
    Ms. Fryer. No, he did not.
    Mr. Mica. Did you ever brief Administrator Tavenner on the 
security risks in the federal exchange?
    Ms. Fryer. No, I did not.
    Mr. Mica. Did you----
    Chairman Issa. The gentleman's time has expired.
    Mr. Mica.--Mr. Charest and also Mr. Baitman?
    Chairman Issa. You may answer.
    Mr. Charest. No, sir, I never briefed Tavenner.
    Mr. Mica. Mr. Baitman?
    Mr. Baitman. I am sorry, could you repeat the question?
    Mr. Mica. Did you counsel with Ms. Tavenner on security 
issues?
    Mr. Baitman. No, I did not.
    Mr. Mica. Thank you.
    Chairman Issa. Thank you very much.
    The gentleman from Massachusetts, Mr. Tierney, is 
recognized.
    Mr. Tierney. Thank you very much.
    Thank all the witnesses for their work and for being here 
again today.
    So essentially what we have established is that we have a 
memorandum that allows the majority apparently to raise the 
spectre of problems, only to find out that it was never sent to 
anyone because those issues had been addressed and dealt with, 
and now we have a system that has not had any successful hack 
attack since then. But we continue to go over and over and over 
this because, if we do go over and over and over it, maybe 
somebody will think that there is a real problem.
    But let's talk about the real problem. So we have spent a 
lot of time doing that on this committee, Oversight Committee, 
had hearings and subpoenaed documents, conducted interviews; 
Mr. Baitman ad nauseam with respect to you, at least. The good 
news is that there have been no successful attacks in security 
against the website, but every day people do attempt, from time 
to time.
    So I have a modest suggestion here. Why don't we try to 
find out who is doing that? This is an oversight and 
investigatory committee, after all. It seems to me that if we 
have a website and people want to have healthcare, but there 
are people trying to prevent them from doing that, by that I 
don't reference my colleagues here, I reference people that are 
trying to--although many people are tiresome of the efforts to 
repeal--I am talking about people that are trying to get into 
the system and destroy it. We ought to go after those bad guys 
on that basis.
    There are reports out there, pretty wide range set of 
reports, describing some of the malicious groups that are 
organizing to try to do this. One example is a group that 
developed a program called Destroy Obamacare. Are you familiar 
with that, Mr. Baitman?
    Mr. Baitman. Yes, I have seen reports of it.
    Mr. Tierney. And apparently what they were doing was trying 
to have a denial of service tool. Can one of you explain what 
that is? Mr. Charest?
    Mr. Charest. Yes, sir. So in the case of Destroy Obamacare 
and in all denial of service tools, the basic premise is to 
flood the website with potentially even appropriate traffic, 
but such that legitimate users cannot access the site, it is 
overloaded, in essence.
    Mr. Tierney. So the spectre this would raise is trying to 
be made true by people who are taking an overt action, trying 
to interfere with the system, would that be right?
    Mr. Charest. Yes, sir.
    Mr. Tierney. So press reports indicate that these are, in 
their words, right-wing groups motivated not by financial gain, 
but sort of a political animus. They disagree with the 
Affordable Care Act, so they are trying to intentionally block 
applicants from actually getting access and getting the rights 
entitled to them under the law. Is it a crime, Dr. Charest, for 
them to do this?
    Mr. Charest. I am not an attorney, sir, but I believe it 
is.
    Mr. Tierney. And who investigates those types of attacks?
    Mr. Charest. In the event--and we did investigate the 
Destroy Obamacare code and those--not the actors, that is not 
our role, but the attempted attack. We found it to be 
rudimentary, but we did report, as we report all these 
incidents, to the Office of the Inspector General, and they 
received that information and would indeed investigate, if 
appropriate.
    Mr. Tierney. Okay. And would they investigate to try to 
determine who the individuals leading this attack are?
    Mr. Charest. That is my understanding, sir, but they would 
have to tell you their procedures.
    Mr. Tierney. Okay. And perhaps that is a good action for 
this committee, would be to meet with those people and find out 
where they are going and what they are finding out. Does your 
incident response team, in terms of checking out these 
allegations to look to see who is undermining it, do you look 
to see how you can trace back on the site, where it may 
originate or where the site is hosted?
    Mr. Charest. Yes, sir. We will trace back what we call the 
command and control, all the elements of the attack, as best as 
we can, and then we will share that with DHS, law enforcement, 
and others, as appropriate.
    Mr. Tierney. And do you think that if the right people were 
investigating this, they would be able to in fact locate and 
find who these people are? Is there a likelihood of that?
    Mr. Charest. It is possible, sir, but these things are 
fairly mercurial. IP addresses are rapidly changing; websites 
come up and down pretty often. The reality is, though, very 
often they are found.
    Mr. Tierney. And it is because of that mercurial aspect and 
other things in constant attacks that you have the need for 
layered security, is that correct?
    Mr. Charest. Yes, sir.
    Mr. Tierney. And that layered security, once again, has 
been successful to date in stopping any successful hacking 
attack, is that correct?
    Mr. Charest. Yes, sir, to date it has.
    Mr. Tierney. All right. But because all systems, whether 
they are private or public like this, are constantly under 
attack, we have to be vigilant, and that is exactly what all of 
you are doing, is that correct?
    Mr. Charest. Yes, sir, around the clock.
    Mr. Tierney. Well, I thank you for your efforts.
    Mr. Chairman, I think that I would ask that the committee 
consider an investigation pursuing those who are making 
attempts to attack and hack this site, for whether it is 
political animus or any other means on that. I think that would 
be an appropriate activity for us to do. That seems to be the 
real danger here, interfering with people's rights to have 
healthcare under the plan.
    Chairman Issa. The gentleman absolutely is right. 
Cybersecurity is part of our core jurisdiction. Mr. Connolly 
and I also spoke this morning at a cloud computing conference, 
so that is an area of not only interest, but a willingness to 
put staff and dais time into.
    If I may, Mr. Cummings and I have been discussing, and I 
will be brief, the fact that we need to link in, as part of our 
committee jurisdiction, other areas of best practice flaws 
within the Federal Government, but also a recognition that 
those things have to be rippled out to private corporations; 
the banking community. Certainly Target has been mentioned 
here, but it wasn't the only commercial site hacked during this 
period of time. So I join with the gentleman and you can count 
on there being a series of briefings and possible committee 
hearings on them.
    Mr. Tierney. I thank the chairman. Yield back.
    Chairman Issa. We now go to the gentleman from Michigan, 
Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
witnesses for being here.
    Ms. Fryer, we have dealt with the memo and your ultimate 
decision not to send it, but I think there is still questions 
that are there and it can't be just simply an out of sight, out 
of mind issue, so let me ask you a question. In your testimony 
last month before the committee you characterized the 
mitigation plan identified in the risk decision memo as ``added 
protections to compensate for those unknown risks.'' What did 
you mean by this, specifically those unknown risks?
    Ms. Fryer. So the security testing in September was not to 
the level that was expected, so they weren't able to test fully 
for the confidentiality and integrity areas. So in order to 
compensate for those compensating controls, we added those. 
Those were additional protections for the overall marketplace 
system.
    Mr. Walberg. Well, is a mitigation able to effectively 
address the vulnerabilities in the nearly half of the modules 
that made up the marketplace that were not fully security 
tested?
    Ms. Fryer. It was a later protection, so later protection 
was put into place to mitigate the risk of those. You can't 
mitigate unknown risks, so, again, we have those later 
protections in place.
    Mr. Walberg. Well, based upon that, let me go, Ms. Fryer 
and Mr. Charest. Is it true that a good security control 
assessment makes it easier to create a good, tight mitigation 
plan?
    Mr. Charest. I would say so, yes, sir.
    Mr. Walberg. Would you agree, Ms. Fryer?
    Ms. Fryer. Yes, I do, sir.
    Mr. Walberg. Is it true that the more understood the risks, 
the better it is to create a plan to address those risks? Mr. 
Charest, Ms. Fryer?
    Mr. Charest. Yes, sir, it is.
    Mr. Walberg. Just establishing the pattern here.
    Ms. Fryer. Yes, sir.
    Mr. Walberg. Is it possible to mitigate unknown risks?
    Mr. Charest. I don't know of any way to do that, sir.
    Ms. Fryer. No, sir.
    Mr. Walberg. How difficult is it to mitigate unknown risks?
    Mr. Charest. There are always unknown risks, so when you 
say how to mitigate a specific unknown risk, obviously, it is 
unknown, so what you do is you create an environment as we 
have, which is a defense in depth strategy; it is the 
infrastructural components, it is the methodologies that you 
utilize for your IT systems. It is the preponderance of all of 
these elements and then those teams that are designed to watch 
those elements in operation that will allow you to, in essence, 
address unknown risks.
    Mr. Walberg. But clearly with this testimony, to advance 
the rollout with unknown risks out there, with unclear 
mitigation, certainly appears, I think, to this committee to be 
a concern worth addressing and worth having these hearings 
over.
    Chairman Issa. Would the gentleman yield?
    Mr. Walberg. Yes, I would.
    Chairman Issa. I think the gentleman makes an extremely 
good point, and I might note that Ms. Fryer had made it clear 
that there were tests that could have been done that would have 
caused the unknown risks to be less unknown.
    Mr. Walberg. I concur.
    Mr. Baitman, Teresa Fryer had a discussion with you about 
the security risk of Healthcare.gov, is that correct?
    Mr. Baitman. There was a video conference call, I think you 
are probably referring to, on September 20th.
    Mr. Walberg. But you had a discussion with Ms. Fryer.
    Mr. Baitman. She participated, that is correct.
    Mr. Walberg. What did Ms. Fryer tell you in that video 
conference call?
    Mr. Baitman. As I recall, the CIO of CMS at the time was 
Tony Trenkle, and I believe Tony said that both he and Ms. 
Fryer were uncomfortable with signing the ATO.
    Mr. Walberg. Did you relay that discomfort with anyone 
about Healthcare.gov who had the Authority to Operate within 
HHS?
    Mr. Baitman. I am sorry, I don't understand.
    Mr. Walberg. Did you relay Ms. Fryer's discomfort with the 
risk in signing the Authority to Operate with HHS?
    Mr. Baitman. Yes, I did.
    Mr. Walberg. Did you tell this information to anyone, 
including Ned Holland or Jim Corr?
    Mr. Baitman. I shared it with a few people, Ned Holland and 
Deputy Secretary Corr, yes.
    Mr. Walberg. What did you tell them?
    Mr. Baitman. I thought it was noteworthy that the chief 
information security officer for CMS had expressed that she was 
uncomfortable signing it. On the other hand, I didn't consider 
it a red flag. So I wanted to share it with them, but Ms. Fryer 
wasn't the operational security person and CMS has an official 
who is responsible for that, so I thought that he was probably 
in a better position to know what changes had been made and 
what was going to launch on October 1st.
    Chairman Issa. The gentleman's time has expired.
    We now go to the gentleman from Massachusetts, Mr. Lynch, 
for five minutes.
    Mr. Lynch. Thank you, Mr. Chairman, and I thank the ranking 
member as well.
    Mr. Baitman, I want to go back some previous questioning. I 
am not sure if it was Mr. Cummings or Mr. Tierney, they talked 
about the beta approach that you referred to, and I just want 
to be clear on this. During your interview with the committee 
you had said earlier that your suggestion about the beta 
approach was based on your sort of general experience in the 
private sector with the rollout of IT systems, again, in the 
private sector, is that correct?
    Mr. Baitman. That is correct.
    Mr. Lynch. Okay. So you explained your suggestion had 
nothing to do with security concerns with regard to the 
website.
    Mr. Baitman. No. I didn't have any direct knowledge of 
functional or security issues; it was more of a this is a big, 
large, complex system and this is an approach that will 
minimize any challenges.
    Mr. Lynch. Okay. I just wanted to be clear on it. And, in 
fact, you told us in your previous testimony on September 10th 
that you had no specific knowledge of any security concerns 
with the website. Is that still correct?
    Mr. Baitman. No specific concerns, no.
    Mr. Lynch. Okay. All right. Thank you.
    I know we are talking about the technology, and in a moment 
of complete disclosure, I voted against the Affordable Care Act 
for a whole slew of reasons. However, this was not one of them. 
This was supposed to be the easy part, this rollout, the 
mechanical function of getting everybody up and on the system, 
so it is particularly discouraging. But I do want to say this 
is the law. I voted against it because I didn't think it was 
being done the right way, and people can differ on that. But I 
see my role going forward as one of making sure that the people 
that I represent have decent affordable, high-quality 
healthcare. That is my role going forward, and I think that 
should be everyone's goal here. But I have had an opportunity 
to sit with the folks that are running the Massachusetts 
Connector, the Health Connector, and some of the folks that are 
going out to sign everybody up, and I had one question.
    I read the security documents for the Massachusetts Health 
Connector. Of course, I can't locate it right now, but what 
they do say in the security section regarding personally 
identifiable information, it talks about all the precautions 
they are taking, but then it says, and it is sort of an odd 
wrinkle, however, once you voluntarily submit personally 
identifiable information to us, the Health Connector, related 
to your use of the portal, its dissemination is governed by the 
public records law, the Fair Information Practices Act of 
Massachusetts General Laws 66(a), so forth, and other 
applicable laws and regulations. And they have this one called 
out in bold, it says, for this reason, part or all of the 
information you send us may be provided to a member of the 
public in response to a public records request.
    Now, I don't think that is what we intended when we passed 
that law in Massachusetts, but I know there are a whole lot of 
laws all across probably in all 50 States and the District of 
Columbia that have this public records access ability. And I am 
not sure if Mr. Charest or Ms. Fryer or you, Mr. Baitman, might 
have some comment on that. Is that something that we are going 
to have to go back, all 50 States, and say we don't mean that 
your personal information should be accessible through a public 
records request? Have you thought about that?
    Mr. Baitman. I have to say I don't think I am in a position 
to address that, unfortunately.
    Mr. Lynch. How about you, Ms. Fryer?
    Ms. Fryer. Same here, sir.
    Mr. Lynch. Okay. Mr. Charest?
    Mr. Charest. I am from Massachusetts and, unfortunately, I 
still can't address it, sir.
    Mr. Lynch. That's three strikes and I am out, I guess. 
Well, I just want to say I appreciate your efforts and your 
good work on this, and I will yield back the balance of my 
time.
    Chairman Issa. Would the gentleman yield?
    Mr. Lynch. Sure I will. Sure I will.
    Chairman Issa. Mr. Baitman, I just had one quick follow-up, 
I think Mr. Lynch would also want to know. You said that Ms. 
Fryer's concerns did not raise a red flag. Do you really mean 
that her being uncomfortable with the security launch didn't 
raise a red flag simply because, even though she was 
knowledgeable, she wasn't ``the one in charge''?
    Mr. Baitman. That is what I mean, yes.
    Chairman Issa. I wish you had said that yesterday in the 
testimony.
    Mr. Meehan is recognized for five minutes.
    Mr. Meehan. I thank you, Mr. Chairman.
    Mr. Charest, what is a successful attack on the system?
    Mr. Charest. It can be defined, I suppose, in a number of 
ways, sir, but basically where the attacker actually has 
penetrated the system and/or compromised the system or, as we 
call it, exfiltrated, meaning taken away something from the 
system.
    Mr. Meehan. Okay, so at this point in time, then, and this 
is the testimony. I am kind of interested in, on the record--
and the chairman or the ranking member went through this with 
both you and Ms. Fryer and it has been your testimony there has 
been no reported successful attack on the system.
    Mr. Charest. That is correct, sir.
    Mr. Meehan. Now, I know from my work with chairing the 
Cybersecurity Committee for Homeland, a million hits a day on 
our banking systems and things like this, Chinese hackers now. 
The record indicates that Chinese hackers came in in November 
and tried to get into the system. The last time they have ever 
done it?
    Mr. Charest. I just want to parse there are attempts all 
the time by would-be attackers.
    Mr. Meehan. So that is what I am trying to say. So we have 
maybe 30, 40, 50,000 navigators around the United States 
dealing with personally identifying information; we have 
Chinese hackers doing millions of attacks a day; sophisticated 
Russians; we had sophisticated networks that broke into Target. 
They didn't know it, with the most secure systems, they didn't 
know it for quite a period of time, did they? But somehow there 
hasn't been a successful attack since this has rolled out, this 
system?
    Mr. Charest. That is correct, sir.
    Mr. Meehan. All right. I am still struggling with the idea 
of how this thing was approved, the ATO decision was made, from 
my work with FISMA. Now, let me ask you specifically. Was there 
a security assessment plan that was done prior to the ATO 
decision? Ms. Fryer, Mr. Charest? Ms. Fryer, was there a 
security assessment plan completed and done by HHS prior to the 
decision that was made?
    Ms. Fryer. So let me clarify. There was a security test 
plan that was created before the testing was conducted in 
September, and, yes, there was a security controls assessment 
report that was completed after the testing was.
    Mr. Meehan. Have you turned over that plan and that 
assessment to this committee?
    Ms. Fryer. I can't answer that question.
    Mr. Meehan. Will you turn over that plan and that 
assessment to this committee?
    Ms. Fryer. I would have to bring that back to my agents.
    Mr. Meehan. Why is that a difficult question? Will you turn 
that plan and that assessment over to my committee on 
Cybersecurity in Homeland Security?
    Ms. Fryer. I believe that those documents have been turned 
over; they are sensitive documents. Usually, we don't like to 
have them out there, but I believe that----
    Mr. Meehan. It is my understanding that, in fact, the 
testing preceded the completion of those documents, that plan 
and the final assessment. Is that accurate?
    Ms. Fryer. The testing is conducted and then a security 
controls assessment report is delivered by the contractor.
    Mr. Meehan. MITRE didn't have access to the full--doesn't 
it need access to the full scope of the network?
    Ms. Fryer. I didn't understand that question, full scope. 
They have a scope----
    Mr. Meehan. Did they have full access to the information 
system and the environment of the operation?
    Ms. Fryer. They have access----
    Mr. Meehan. Did they have, did MITRE, who was the 
contractor, is it your testimony that during the period of time 
when they were supposed to be preparing this report, which is 
required under the law, under FISMA, did MITRE have proper 
access to the information system and the environment of 
operation, specifically?
    Ms. Fryer. The system that was being tested, yes.
    Mr. Meehan. Well, was it the system that was being tested 
or the full system? Not the system that was being tested, 
because what we had was parts of the system being tested. But 
FISMA doesn't authorize parts of the system being tested, it 
requires, under the law, the entirety of the system.
    Ms. Fryer. They tested what was in scope of the security 
test plan that was provided by FISMA.
    Mr. Meehan. Well, that is why I want to see the security 
test plan; not for the parts of the security, but the entirety 
of the system. Was the security test plan dealing with the 
entirety of the system prior to the OTA being made?
    Chairman Issa. The gentleman's time has expired, but you 
may answer and I think include the words end-to-end, perhaps, 
if you think that is appropriate.
    Ms. Fryer. If I understand, you are requesting the security 
test plan.
    Mr. Meehan. I want the security test plan, I want the 
security assessment, and then I want the remediation that was 
by the contractor and HHS in which they resolved all of those 
issues and I want to know that they were all done prior to the 
approval of the OTA, which is required under the FISMA law.
    Ms. Fryer. Yes, sir, and I will bring that request back.
    Chairman Issa. Thank you. I thank both of you.
    I will note for the committee that we were unaware of the 
December 18th study; it has not been provided, even though we 
believe it would be appropriate pursuant to the subpoena that 
was already in place, and it is my intention to issue a new 
subpoena to make sure there is no doubt that that document that 
we were not aware of as of yesterday had not been provided.
    And for the record, no, Mr. Meehan, those documents have 
not been provided by HHS.
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. It is my 
understanding, however, that an unredacted copy of the test 
results was subpoenaed and was provided to this committee.
    Is that correct, Ms. Fryer?
    Ms. Fryer. Yes, I believe the September testing documents. 
If it is the December ones, like I said, I have to bring that 
request back.
    Mr. Connolly. Okay.
    Chairman Issa. Mr. Connolly, if I may. I just want to make 
sure your question is clear. MITRE Corporation, pursuant to a 
subpoena, supplied us documents; neither Health and Human 
Services, nor CMS have provided any such documents. Thank you.
    Mr. Connolly. Thank you for the clarification.
    And, Mr. Baitman, let me express my regret that you were 
given so little notice before being asked to testify here 
today, for a committee that insists on better compliance from 
various Federal agencies, and in a timely fashion. Sometimes we 
seem to have a double standard, or it might be perceived that 
way.
    I want to ask about security, because I have to admit, when 
I heard some of the statements, especially the opening 
statement of the chairman, it sounded scary to me. It sounded 
like only Healthcare.gov represents a potential security, 
cybersecurity threat that could compromise everybody's 
healthcare in America. And, of course, as you indicated, Mr. 
Charest, cybersecurity attacks are going on all the time, in 
the private sector as well as in the public sector. The game 
here is to stay ahead of it, to develop systems to try to 
prevent it, to track it down, and that is going to be an 
ongoing battle forever for everybody because of the nature of 
technology. Do you think that is a fair statement, Mr. Charest?
    Mr. Charest. Yes, sir. We cybersecurity professionals 
believe we have excellent job security.
    Mr. Connolly. Okay. I want to ask about, because several of 
us wrote the chairman of this committee asking for 
clarification of protocols to safeguard sensitive documents, 
and, Ms. Fryer and Mr. Baitman, if I am hearing you correctly, 
there is reason to be concerned about providing us with very 
sensitive documents that could somehow be compromised, 
obviously unwittingly. Nobody on this committee would ever leak 
anything to the press. But leaving it around accidentally or 
whatever could in fact lead to the very result that presumably 
this hearing is all about trying to deter, which is the 
compromise of consumer information.
    And I quote the president and CEO of MITRE, who wrote the 
chairman of this committee and said, ``In the wrong hands, this 
information could cause irreparable harm to the basic security 
and architecture of Healthcare.gov and potentially the security 
of other CMS data networks that share attributes of this 
architecture.'' Is that a fair concern, Mr. Baitman, Ms. Fryer?
    Mr. Baitman. I believe it is a fair concern. I think that 
those documents could, if they were made public, provide a 
roadmap to an attacker.
    Mr. Connolly. So the very thing we are having a hearing 
about today we could, again, unwittingly, actually be part of 
the problem if we don't establish clear guidelines, clear 
protocols for the securing of such information. Fair statement, 
Ms. Fryer?
    Ms. Fryer. Yes. These are sensitive documents that are 
tightly controlled.
    Mr. Connolly. So were someone to leak them, for example, 
someone got them through, I don't know, a subpoena, for 
example, and somebody decided to, as the ranking member, the 
phrase he used, cherry-pick information and leaked it to the 
press, again, not that that would ever happen here, in this 
committee, but if that were to happen it could actually lead to 
the very compromise and degradation of the security systems you 
are trying to put in place, is that correct?
    Ms. Fryer. Yes, it is.
    Mr. Connolly. Mr. Baitman, you want to comment on that? You 
come from the private sector. You are looking sort of at a 
little different air level on these issues, looking at how CMS 
and your own department are handling it. Are you comfortable 
that we have strict protocols in place here, on this committee, 
for example, such that your concern would be abated?
    Mr. Baitman. I am not familiar with the protocols the 
committee has.
    Mr. Connolly. Ms. Fryer?
    Ms. Fryer. Again, I am not familiar with the protocols.
    Mr. Connolly. You are not familiar with our protocols. So, 
Mr. Charest?
    Mr. Charest. No, sir, I am not familiar with the protocols, 
but I am concerned.
    Mr. Connolly. Allegedly, we have asked an outside security 
agency to look at your security measures. Are you familiar with 
that? Do you know who the outside--because the Democrats, as 
far as I know, were not informed as to who that entity was and 
whether they have come to some kind of conclusion. Have you 
been made--you were here seven hours, Mr. Baitman. Anyone talk 
to you about that?
    Mr. Baitman. I was unaware of that, actually.
    Mr. Connolly. So were we. I thank you. My time is up.
    Mr. Mica. [Presiding.] The gentleman from Oklahoma, Mr. 
Lankford, is recognized.
    Mr. Lankford. Thank you, Mr. Chairman.
    Mr. Baitman, I want to follow up real quick on a statement 
that you had made earlier that the chairman had also mentioned 
about Ms. Fryer and Tony Trenkle had made statements or 
recommendations to say that they were not comfortable giving 
authority to operate based on security issues. You had said 
that was not a red flag to you because someone else has 
responsibility for that. Who is that other person who has 
responsibility?
    Mr. Baitman. Well, as I understand it, the Healthcare.gov 
project was built across various parts of CMS, some of which 
were not under Mr. Trenkle's leadership. They also had a CMS 
official who was responsible for all operational security for 
Healthcare.gov, and that person was on the ground and obviously 
more closely focused on it. Ultimately, though, I thought it 
was appropriate that Ms. Tavenner, as the administrator for 
CMS, be the individual who accepted risk on behalf of CMS 
because the project was large and being done across various 
parts of CMS.
    Mr. Lankford. As a leader that I have staff around me as 
well, I gather the information from multiple staff, then have 
to make the final decision. Do you know if Ms. Fryer's 
recommendations and Tony Trenkle's statements about the 
security is not ready and this is a high risk, was that given 
to Ms. Tavenner before she made her decision?
    Mr. Baitman. I actually don't know.
    Mr. Lankford. Would you assume that that would be given to 
her?
    Mr. Baitman. I would assume she would be briefed, yes.
    Mr. Lankford. Because it would be an issue to me to make a 
decision and then to find out later that I have staff around me 
that had recommended this was a bad issue, but that information 
never landed on my desk because someone stopped it.
    So you passed on the information, Ms. Fryer that Tony 
Trenkle had given you to other folks, and it was their 
responsibility then to pass it on to Ms. Tavenner, or who was 
going to give that to her?
    Mr. Baitman. Well, as I said, the project was run within 
CMS, so I assume that the various parts of CMS who were running 
the project were actually briefing Ms. Tavenner.
    Mr. Lankford. Right. But you were the one on the phone with 
them, getting the information saying this security is not 
ready, we are at a high risk. Does that stop with you or do you 
say, okay, someone--so that does not have a duty to be able to 
report or somebody else is going to pick that up?
    Mr. Baitman. So during that conversation they actually told 
me that they were going to bring the decision for whether or 
not the ATO would be signed to Ms. Tavenner.
    Mr. Lankford. Who is the they there?
    Mr. Baitman. Tony Trenkle, who was the CIO at the time, and 
Teresa Fryer.
    Mr. Lankford. Okay.
    Ms. Fryer, were you part of that responsibility of 
reporting that to Ms. Tavenner?
    Ms. Fryer. No, I was not.
    Mr. Lankford. Do you know how that was reported to her or 
if it was?
    Ms. Fryer. No, I don't know that.
    Mr. Lankford. So you don't know if Tony Trenkle passed that 
on as well.
    Ms. Fryer. No, I don't.
    Mr. Lankford. In October of this last year Secretary 
Sebelius said, in an ideal world there would have been a lot 
more testing, but we didn't have the luxury of that, and the 
law said the go time was October the 1st. Before the committee, 
then, CMS Chief Operating Officer Michelle Schneider was also 
asked why October 1st was chosen as a launch date; she said, 
I'm assuming it was in the law or the regulation.
    Ms. Fryer, is it your understanding that October the 1st 
was required by the law to be the launch date?
    Ms. Fryer. No, I don't know that.
    Mr. Lankford. Did anyone repeat back to you, no we have 
security issues and concerns, but we have to go October the 
1st, that is the law?
    Ms. Fryer. No, they did not.
    Mr. Lankford. Mr. Charest, were you aware of any provision 
in the Affordable Care Act that required October the 1st as the 
launch date?
    Mr. Charest. No, sir.
    Mr. Lankford. Anyone say to you we have to keep moving 
because the law requires this?
    Mr. Charest. No, sir. From my perspective, it was just a 
date in a project plan.
    Mr. Lankford. How about you, Mr. Baitman, did you have any 
knowledge of the statute requiring October the 1st?
    Mr. Baitman. I don't have any knowledge. When I joined HHS, 
it was already sort of ordained that October 1st was the date.
    Mr. Lankford. Do you know of any particular reason to say 
we have security questions and issues, October the 1st, if that 
is not in statute, if we have issues, maybe we should stall 
this until we deal with some of the security issues and make 
sure we are ready to go?
    Mr. Baitman. Again, we work on a federated structure, so 
CMS had direct knowledge of what the requirements were.
    Mr. Lankford. Is there any possibility that there may be a 
mistaken belief about the October the 1st date, that the 
secretary states obviously in October that the law requires 
this? Is it possible that the Administration was working on a 
misbelief that the law required October the 1st?
    Mr. Baitman. I can't speak for why other people had their 
opinions of that.
    Mr. Lankford. Mr. Baitman, you had testified you had 
suggested a phased rollout after some beta testing. Was that 
suggestion taken?
    Mr. Baitman. It was a beta launch. No, that wasn't the 
approach that was taken.
    Mr. Lankford. Did you ever ask anyone why? I mean, 
obviously, by mid-October, in quiet moments at your house, 
surely you had some thought it probably would have been better 
to do a phased launch of this thing. Do you have any idea why 
that suggestion was ignored or delayed?
    Mr. Baitman. At the meeting that you are referring to, CMS 
indicated, and CMS was in the best position to know, that they 
were confident the system would be ready for October 1st 
launch.
    Mr. Lankford. Confidence seems to be misplaced.
    I yield back.
    Mr. Mica. The gentlelady from Illinois, Ms. Duckworth, is 
recognized.
    Ms. Duckworth. Thank you, Mr. Chairman.
    I strongly believe that when my constituents are dealing 
with the Government, the last thing they should be concerned 
about is that their personal data is being compromised. 
Information security should be a top priority for any 
Government website, so I would like the panel to sort of bear 
with me as we go through exactly what is in place, to make sure 
that I have a better understanding, because we have sort of 
talked about all different things.
    Ms. Fryer, could you walk me through the security 
precautions? You mentioned that there were many different 
layers that are in place. Can you explain what those three 
layers of protection are, and what procedures and processes are 
used?
    Ms. Fryer. Yes. So there is the operational security, the 
day-to-day activities; there is code software reviews, that is 
the operational marketplace security team that does those 
activities; and they also have continuous monitoring, they have 
a group that has continuous monitoring tools in place; and then 
there is my group that is the oversight for CMS, and we also 
have continuous monitoring tools in place, as well as 
penetration testers that try to go in and hack into systems and 
penetrate the systems. HHS also has tools insight into our 
systems. So there is a layered protection of security for all 
of our CMS systems.
    Ms. Duckworth. So basically you are saying that it is not 
just the team that reports to you, but there are other groups 
of Government employees and contractors who oversee and conduct 
day-to-day security activities, is that right?
    Ms. Fryer. Yes. Yes, there are many business information 
system security owners that have the day-to-day security 
activities, as well as my office.
    Ms. Duckworth. Are there systems in place, for example, at 
CMS, to ensure that the code is security tested on an ongoing 
basis, not just when it is first implemented, but on an ongoing 
basis with secure code reviews and software assurance?
    Ms. Fryer. Yes. Any time a change is made to a system, they 
have to do code reviews, and there is a very strict change 
management process that is followed before the change is put 
into production.
    Ms. Duckworth. And then I also understand that there is a 
weekly, as you said on penetration protection, weekly scanning 
and penetration testing of perimeter devices such as firewalls, 
is that correct? Is that ongoing as well?
    Ms. Fryer. Yes. So that is above and beyond best practices. 
We do weekly scans of all the perimeter devices and all the 
external web-facing servers that are related to marketplace.
    Ms. Duckworth. So touching on what you are saying about the 
best practices, are you confident that the security systems and 
procedures that are in place are well within or not superior to 
the best practices that are ongoing with similar types of 
security that is needed for other websites?
    Ms. Fryer. Yes, I do.
    Ms. Duckworth. Mr. Baitman, how does that compare to 
industry?
    Mr. Baitman. I would say that practices in the Federal 
Government generally exceed industry.
    Ms. Duckworth. Generally exceeds industry? Thank you.
    Have all of these layers of security, Ms. Fryer, been in 
place since the website was launched in October?
    Ms. Fryer. Yes, it has been.
    Ms. Duckworth. And they are still in place and ongoing?
    Ms. Fryer. Yes.
    Ms. Duckworth. Does CMS have a security team dedicated to 
ensuring that these multiple layers of protection are 
overlapping and continue to be effective?
    Ms. Fryer. Yes. That was part of the ATO memo. Myself, I am 
on part of that team.
    Ms. Duckworth. How often does that team meet, talk to one 
another, review the procedures?
    Ms. Fryer. On a weekly basis.
    Ms. Duckworth. On a weekly basis. Thank you. Can you sort 
of talk about how these multiple layers help to protect 
confidential consumer information and how they interact? For 
example, I signed up for healthcare reform and, by the way, 
saved $60. I went from $295 a month for my healthcare plan to 
$239 a month for the exact same plan, so I am pretty happy I 
got a savings. But when I put all that information, how do I, 
as a customer, know that I am protected? I know this is a very 
broad question, but can you sort of sketch how those different 
layers work with each other, say with my personal information 
that I have entered?
    Ms. Fryer. Well, there are different layers, again, so if 
there are attackers coming in from the inside, we have many 
protections to detect these attacks. As mentioned before, there 
has been no successful attacks, but attacks are being made all 
the time on the website, so we have these tools in place to 
detect anomalies, all these tools. Even if one tool doesn't 
pick it up, we have this layer of protection, so we have other 
various tools in place to detect.
    Ms. Duckworth. So you could, for example, if there is just 
an unanticipated pattern that emerges or certain things that 
are happening, you can actually identify, wait, something is 
going on here that is unusual, we need to take a closer look at 
it?
    Ms. Fryer. Yes, we have tools that will pick up anomalies.
    Mr. Mica. I thank the gentlelady.
    Ms. Duckworth. Thank you.
    Mr. Mica. I thank the witness.
    Mr. Meadows, the gentleman from North Carolina.
    Mr. Meadows. Thank you, Mr. Chairman.
    I want to follow up on Ms. Duckworth's questioning there, 
if I could, Mr. Charest. This question is to you. She went 
through a long list of all the security that has been 
implemented and you were very, it seemed like, caution in the 
way that you said that there was no malicious attacks. Has 
there been inadvertent personal information that has been 
shared with someone else in this particular website?
    Mr. Charest. Yes, sir, there has.
    Mr. Meadows. There has. How many times has that happened, 
personal information from someone else getting shared with an 
inappropriate person?
    Mr. Charest. I don't know the exact count, but in the early 
stages of the launch there were a number, I think somewhere 
less than 10. But there were some that were reported both in 
the media and to us.
    Mr. Meadows. All right, so somewhere less than 10. Now, it 
is interesting that you wouldn't know the exact number, because 
you are very emphatic that there had been zero malicious 
attacks, but inadvertent disclosure you can't give us an exact 
number.
    Mr. Charest. Well, I, in fact, have the categories in front 
of me here, sir, if you would like me to give you the numbers.
    Mr. Meadows. Just the number.
    Mr. Charest. Okay, no problem.
    Mr. Meadows. So how many total disclosures of personal 
information to other people have we had?
    Mr. Charest. We classify these incidents by----
    Mr. Meadows. Total numbers.
    Mr. Charest. It would appear, from the numbers I have in 
front of me, there are 13 category one, which is where we put 
potential PII----
    Mr. Meadows. Thirteen. Total numbers. Total numbers, 13.
    Mr. Charest. That is what I have here, yes, sir.
    Mr. Meadows. So there was no others. So it wasn't less than 
10, it was more than 10.
    Mr. Charest. Well, no, not necessarily, sir, because the 13 
in the category don't always mean there was a disclosure. They 
also could be exposure, but not disclosure.
    Mr. Meadows. Exposure, but not disclosure.
    Mr. Charest. Yes, sir.
    Mr. Meadows. Okay. Well, we will save that for another day, 
because I think what the American people want is honesty and 
transparency, and to hear you testify less than 10 and more 
than 13. But more problematic for me is for you to lead this 
group to say that there were no malicious intent, and yet 
knowing full well that there has been disclosure. They just 
want honesty and transparency.
    Wouldn't you agree, Ms. Fryer, that that is important?
    Ms. Fryer. Yes, sir.
    Mr. Meadows. Okay.
    In that, you have testified before, so in your preparation 
today to come before, have you met with attorneys to prep you 
on your testimony?
    Ms. Fryer. I have been briefed on what to expect.
    Mr. Meadows. Okay. How long has that briefing taken place? 
How much time did you spend in that prep? How many days?
    Ms. Fryer. It was over a few days, couple hours each day.
    Mr. Meadows. Okay, so how many hours does it take to be 
briefed to tell the truth?
    Ms. Fryer. It doesn't.
    Mr. Meadows. Okay. So why would that have gone on? Have you 
ever been told, well, we would prefer that you don't answer a 
question that way by an attorney?
    Ms. Fryer. No, sir.
    Mr. Meadows. All right. Have you ever had your previous 
testimony looked at and said, well, we wish you hadn't have 
said that?
    Ms. Fryer. No, sir.
    Mr. Meadows. All right. So you believe that from an honesty 
standpoint that you can tell the American people that their 
private information will not be disclosed to a third party?
    Ms. Fryer. As a result of the recent security controls 
testing, yes.
    Mr. Meadows. Okay. So the recent security you are talking 
about in December, that security testing.
    Ms. Fryer. Yes, sir.
    Mr. Meadows. Now, we have been led by other testimony here 
that the website and programming and modules continues today. 
Is that correct?
    Ms. Fryer. Yes, sir.
    Mr. Meadows. So how do you, based on a security analysis 
done in December, assure that the modules that are being 
written as we speak are secure?
    Ms. Fryer. Because, again, there is the operational 
security that the marketplace security team has in place every 
time they do either--and it is done during the security 
development life cycle of a system and any time change is made 
to code they have all types of different security testing that 
is done on a day-to-day basis.
    Mr. Meadows. All right. But we will have additional 
security risks that have to be assessed.
    Ms. Fryer. No, that does not mean to say there is 
additional security risk.
    Mr. Meadows. Okay, when is the next independent security 
assessment going to take place?
    Ms. Fryer. We are requiring one every quarter.
    Mr. Meadows. Okay, so we can expect one and you will submit 
that to this committee?
    Ms. Fryer. Yes, sir.
    Mr. Meadows. Okay. And when will the next one happen?
    Ms. Fryer. We are scheduling that right now for the books, 
which will happen in----
    Mr. Mica. I thank the gentleman and the witness.
    The gentlelady from California, distinguished gentlelady, 
Ms. Speier.
    Ms. Speier. Mr. Chairman, thank you.
    Let me just say at the outset how delighted I am that the 
committee recognizes the importance of protecting the security 
of personally identifiable information in data systems and, as 
such, is making it a focus, because I think that one of the 
next hearings we should have is one on the breach that took 
place at Target with 110 million Americans who were impacted, 
and Neiman Marcus that was impacted as well, and I understand 
there were a couple other retailers. So the potential for being 
hacked is real, it happens in Fortune 100 companies, and we 
should do our due diligence by making sure that efforts in the 
commercial sector are being as secure as possible.
    Having said that, let's focus on the testing that took 
place, the most recent testing that took place. Ms. Fryer, when 
you were here on December 17th, that testing was ongoing at the 
time. My understanding is that it has been completed, is that 
correct?
    Ms. Fryer. Yes, ma'am.
    Ms. Speier. And since it has been completed, can you say 
with certainty that it was completed in a stable environment, 
that all security controls were successfully tested and that it 
was a full end-to-end security test?
    Ms. Fryer. Yes, it was a full comprehensive end-to-end 
security test and it was completed in one stable environment.
    Ms. Speier. All right. Having completed that, is it your 
understanding as well, Dr. Charest, that it was completed under 
those standards?
    Mr. Charest. Yes, ma'am, Teresa related that to me.
    Ms. Speier. So the purpose of this testing is to identify 
vulnerabilities in an IT system so that they can be remediated. 
Is that fair?
    Ms. Fryer. Yes, ma'am.
    Ms. Speier. Does the fact that the SEA testing identifies 
vulnerabilities mean the system is exceptionally risky?
    Ms. Fryer. No. A security controls assessment is conducted 
to discover vulnerabilities so they can be mitigated.
    Ms. Speier. So just like Target needs to do these 
assessments and determine if there are vulnerabilities, it is 
appropriate for you to do that within the ACA.
    Ms. Fryer. Yes, ma'am.
    Ms. Speier. Now, the December testing has been completed 
and you have seen the results of that testing. I have a 
question for all three of you.
    Ms. Fryer, do you have any reason to believe that consumer 
information submitted in the system is not secure at this time, 
based on the testing?
    Ms. Fryer. No, I did not.
    Ms. Speier. Dr. Charest?
    Mr. Charest. No, ma'am, I do not.
    Ms. Speier. Mr. Baitman?
    Mr. Baitman. No, I do not.
    Ms. Speier. So this is like giving the system a clean bill 
of health, is that correct?
    Ms. Fryer. Yes, ma'am.
    Ms. Speier. Knowing full well that just like Target and 
Neiman Marcus and any number of other companies that have been 
hacked into, there are persons out there, around the world, 
attempting to hack into systems. But at this point in time, 
having done the testing, we can say with confidence that the 
system is not subject to being breached, is that right?
    Ms. Fryer. Well, there always is a chance for 
vulnerabilities, but the testing was completed successfully, it 
had good results, so we are confident that the risks have been 
identified and they are being mitigated.
    Ms. Speier. Now, CMS has been running the Medicare system 
for decades, and I guess my question is has there ever been a 
major data breach of that system?
    Ms. Fryer. For the two years that I have been there, not 
that I know of.
    Ms. Speier. And how about the IRS data system?
    Ms. Fryer. I can't answer that.
    Ms. Speier. All right.
    I have one more question. This committee passed a 
bipartisan measure that is referred to as FITARA, which is the 
Federal Information Technology Acquisition Reform Act. It would 
give CIOs much more authority in terms of hiring personnel and 
being in control of their operation. Do you see that as 
appropriate and helpful in doing your job? Mr. Baitman?
    Mr. Baitman. I think that we would be well advised to look 
at some of the challenges that we have not just with this 
project, but other software projects the Federal Government has 
done and identify solutions so that we do a better job of 
managing IT going forward.
    Ms. Speier. So are you suggesting that we should amend 
FITARA and add to it? Are you familiar with FITARA?
    Mr. Baitman. I am somewhat familiar with FITARA, but 
getting into specifics I am not prepared to do right now.
    Ms. Speier. Maybe you could do us a favor and review FITARA 
and make any recommendations you think would be appropriate to 
augment that bipartisan measure.
    I yield back.
    Chairman Issa. [Presiding.] Would the gentlelady yield?
    Ms. Speier. I certainly will.
    Chairman Issa. I think the gentlelady's question is a good 
one, and perhaps the other witnesses could answer the question 
of do they think that budget authority and a single point of 
accountability would enhance these kinds of projects. Mr. 
Baitman commented on that yesterday, so perhaps asked that way 
your question could get a more illustrative answer.
    Mr. Baitman. I certainly think that you get greater 
accountability when you have one person who is clearly in 
charge.
    Chairman Issa. Ms. Fryer?
    Ms. Fryer. Again, I agree with Mr. Baitman that it would 
give greater authority if one person had budget authority, yes.
    Mr. Charest. I also believe that to be true, and I believe 
it would increase efficiency, reduce cost, and have a number of 
other ancillary effects.
    Chairman Issa. Thank you.
    Thank you, Ms. Speier.
    Mr. Bentivolio.
    Mr. Bentivolio. Thank you very much, Mr. Chairman.
    Ms. Fryer, Mr. Charest, Mr. Baitman, we are not here today 
to examine whether the Healthcare.gov website is safe to use. 
We have already established that the Healthcare.gov website was 
certainly not safe to use on October 1st and is likely not safe 
to use today either. While you claim the website meets, and 
even exceeds, security industry standards and claims that no 
breach of the website has occurred, contradictory evidence is 
in abundance and is overwhelming. This evidence includes well-
documented examples of security problems, some systematic, of 
extreme carelessness.
    For example, an email disclosure of vulnerability was 
identified that would allow an attacker to enumerate email 
accounts for individuals. In another example, a user logged 
into to the Healthcare.gov website and saw information from a 
completely different person's profile. For another example, 
security researchers discovered an open URL redirection bug, 
which allows users to visit the website thinking they were 
going to the legitimate Healthcare.gov website, but instead be 
redirected to a malicious website that would completely hack 
their computer. This was only fixed after it was discovered 
when the website was online.
    Ms. Fryer, you recommended denying an ATO, a necessary 
Authority to Launch Healthcare.gov, correct?
    Ms. Fryer. Yes, sir.
    Mr. Bentivolio. If officials had accepted your 
recommendation, would you have been prepared to suggest an 
alternative date or would it have been an indefinite delay?
    Ms. Fryer. Again, that wasn't my responsibility.
    Mr. Bentivolio. Would you have recommended an alternative 
date or would it have been an indefinite delay, yes or no?
    Ms. Fryer. Again, that is not my responsibility. I can't 
answer that.
    Mr. Bentivolio. What would you have done had your 
recommendation been accepted, if you had one? You are the IT 
person. Would you recommend a delay or an alternative day?
    Ms. Fryer. My responsibility is not to determine whether or 
not to--when a system goes into operation, mine is, again, to 
identify the risks and make sure that they are being mitigated.
    Mr. Bentivolio. So you identify the risks, but you don't 
make any recommendations?
    Ms. Fryer. I brief the chief information officer on the 
security risks, and there are many other risks that have to be 
taken into consideration when a system is going operational.
    Chairman Issa. Would the gentleman yield for a second?
    Mr. Bentivolio. Yes.
    Chairman Issa. I am not sure you were in the room, but 77 
days after the launch Ms. Fryer did testify that she now has 
confidence that the end-to-end that she would have asked for 
and so on has been properly mitigated. So I think an answer to 
your question to a certain extent is 77 days would have been 
enough because it occurred.
    Mr. Bentivolio. Thank you. Thank you.
    Do you know whether Ms. Tavenner was informed of your 
concerns and your recommendations on the security risks?
    Ms. Fryer. I am sorry, sir, I didn't hear the question.
    Mr. Bentivolio. Do you know whether Ms. Tavenner was 
informed of your concerns and your recommendations?
    Ms. Fryer. I don't know that.
    Mr. Bentivolio. To your knowledge, what IT security expert 
did Ms. Tavenner rely on to override your concerns on the risks 
of----
    Ms. Fryer. I can't answer that question.
    Mr. Bentivolio. Do you know if she spoke with any IT 
security experts prior to overruling your recommendations or--
--
    Ms. Fryer. I don't.
    Mr. Bentivolio. You don't know.
    Ms. Fryer. No, I don't know.
    Mr. Bentivolio. Thank you. That is all my questions.
    Chairman Issa. I thank the gentleman. We now go to the 
gentlelady from New Mexico, Ms. Grisham.
    Ms. Lujan Grisham. Thank you, Mr. Chairman, and I want to 
thank the panel for being here. It is clear that we are all 
concerned about securing the financial and health-related 
private information on the website. Whether it was this 
healthcare website or any other application by the Federal 
Government, that is going to be one of our priority concerns 
for our constituents, so I appreciate your attention and 
willingness to engage directly in this hearing.
    And like everyone, I think, I am happy that there haven't 
been any significant or malicious security breaches to date, so 
that we are not seeing a significant problem with the security 
measures taken to date to protect that information for 
consumers and users. And, I want to make sure that that is the 
goal of this conversation, that we continue to do whatever 
oversight and enhance those security tests and measures all of 
the time, because every day those risks are greater because 
people figure out better and more enhanced ways to get access 
to that information; and given that I am from a State that has 
a particularly high uninsured population, we are going to have 
a high user end result, I hope, in the marketplaces and 
exchanges. So I want to go just back to a couple things.
    Ms. Fryer, it is my understanding that the Federal 
Information Security Management Act defined the security 
control standards for all Government information technology 
security systems. Is the Healthcare.gov compliant with all the 
standards set forth in FISMA?
    Ms. Fryer. Yes, security testing was conducted in 
accordance with FISMA.
    Ms. Lujan Grisham. And are CMS and HHS implementing 
additional controls or best practices beyond what is called for 
in FISMA?
    Ms. Fryer. Yes, ma'am. We are exceeding industry best 
practices, as well as we have HIPAA controls in place.
    Ms. Lujan Grisham. And that is important to me because 
during our last hearing on Healthcare.gov it was clear that 
there were inherent security risks in any electronic system, so 
getting a sense that you are going beyond that and looking at 
best practices is critical. Can you give me a sense of what 
exactly you are doing to continually monitor and mitigate 
security risks on the website, some examples?
    Ms. Fryer. Again, we are keeping in place those additional 
above and beyond the additional requirements of the weekly 
scanning or continuous monitoring tools, the weekly scans of 
the external web-facing marketplace servers, and----
    Ms. Lujan Grisham. So you are going beyond the weekly 
scans. That is what I am trying to get at. Give me a concrete 
example of what in addition you are doing.
    Ms. Fryer. Well, we are continuing those, those that are in 
the mitigation plan, so we are continuing that. And then there 
is the operational day-to-day security that is in place as well 
by the other group.
    Ms. Lujan Grisham. I appreciate that, and I would also 
encourage you to lead in best practices and do everything in 
your power to go back and describe that. It is certainly my 
opinion, and I would guess the opinion of many more, that you 
would do everything and enhance your mitigation plan to the 
highest degree and lead that for the Country, given the 
importance and the value of the information on the website. 
Thank you.
    Ms. Fryer. Yes, ma'am.
    Chairman Issa. Thank you.
    There was no question pending, was there? Okay.
    I want to inform everyone that there is a vote on the 
floor. We are going to stay as long as we can. Mr. Baitman will 
not be here, if, and, or when we reconvene. You have a hard 
stop at 12 and we are clearly not going to be back in time for 
that. So we are going to go as quickly as we can.
    Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Ms. Fryer, the memo you wrote, but didn't send, dated 
September 24th, 2013, you testified earlier that the reason you 
didn't send it was because there were subsequent events that 
happened that caused you not to think that it was necessary to 
send, is that correct?
    Ms. Fryer. Yes, sir.
    Mr. Jordan. Why didn't you send it, though, the day you 
wrote it? If things happened after the fact that tell you, oh, 
I don't need to send it, on September 24th, when you wrote 
this, you believed everything you wrote, correct?
    Ms. Fryer. Yes. Yes. That was being prepared as a memo. 
Usually an ATO package would go up to the chief information 
officer, and that is a draft.
    Mr. Jordan. All I am asking is on September 24th, the date 
on the memo, when you wrote there is no confidence that 
personal identifiable information will be protected, that is a 
big pretty statement. Why didn't you send it that day?
    Ms. Fryer. Because this was just trying to capture what was 
already briefed on September----
    Mr. Jordan. Something that important--again, you said it 
was events that happened the next week that caused me not to 
send it. But on that day you believed everything you wrote 
here. These are big statements. Why not send it? Did someone 
talk to you and tell you, hey, Teresa, don't send that memo?
    Ms. Fryer. No, sir. A decision had been made to elevate to 
Marilyn Tavenner.
    Mr. Jordan. That doesn't change the fact that you were 
going to send this to Mr. Trenkle, directly above you in the 
chain of command. I just wonder why you didn't send it. If I 
write all this stuff down, important stuff, and also based on 
testimony we had at a previous hearing, you were the only one 
who read the MITRE report prior to this memo. I would assume 
that had a big impact on why you wrote the things you did. All 
I am wondering is why you didn't send it. If I have this 
information, I know this thing is not ready, I do this memo, 
hard-hitting memo that says this thing isn't even close to 
being secure, no end-to-end testing is done, and then I don't 
send it.
    Ms. Fryer. Because it was part of the ATO package that was 
not going up to Mr. Trenkle.
    Mr. Jordan. All right, let me change here a little bit. You 
were interviewed a month ago by the committee, and the young 
lady behind you, Ms. O'Connor, accompanied you in that 
interview, is that correct?
    Ms. Fryer. Yes, sir.
    Mr. Jordan. And, Mr. Charest, you were interviewed last 
week and Ms. O'Connor also accompanied you in that interview?
    Mr. Charest. Yes, sir, that is correct.
    Mr. Jordan. And, Mr. Baitman, you were interviewed two days 
ago and Ms. O'Connor also accompanied you to that interview, is 
that correct?
    Mr. Baitman. That is correct.
    Mr. Jordan. In the interviews we learned, Mr. Charest, you 
said that there was a meeting on, I believe, September 10th, 
where all the key leadership folks from Ms. Tavenner, Mr. Corr, 
CMS and HHS were there, and after the meeting--you weren't at 
that meeting, Mr. Charest, but Mr. Baitman was. After that 
meeting, Mr. Baitman, you had a conversation, and here is the 
transcript. You said, after the meeting he recommended a 
delayed rollout. Your answer was, that's my recollection, yes. 
A delayed rollout of Healthcare.gov? Your answer, that's my 
recollection.
    Now, two days ago, when we talked to Mr. Baitman, which I 
wasn't in your interview, but I was in Mr. Baitman's interview, 
Mr. Baitman said that was not accurate. Do you stand by the 
statement you made to the committee staff one week ago?
    Mr. Charest. Yes, I do.
    Mr. Jordan. Okay, Mr. Baitman, he said that you said to 
him, in a conversation after that meeting, you recommended not 
rolling it out. Is that accurate?
    Mr. Baitman. That is accurate. I am sorry, could you 
rephrase that? I am sorry.
    Mr. Jordan. You recommended not rolling out Healthcare.gov 
on October 1st.
    Mr. Baitman. No, that is not.
    Mr. Jordan. So which one of you told the truth? Which one 
is lying and which one is telling the truth? Mr. Charest said 
you had a conversation--now, you have worked with Mr. Charest 
for a while, Mr. Baitman?
    Mr. Baitman. I have.
    Mr. Jordan. Do you have a good working relationship?
    Mr. Baitman. We have a great working relationship.
    Mr. Jordan. Mr. Charest, is that accurate? You have worked 
with Mr. Baitman obviously a while. Do you have a good working 
relationship?
    Mr. Charest. Yes, I do.
    Mr. Jordan. Do you normally understand, when he 
communicates to you, what he is saying?
    Mr. Charest. Yes, I do, sir, but I----
    Mr. Jordan. So your recollection was he recommended, that 
Mr. Baitman recommended not rolling out Healthcare.gov. He is 
saying that is not what happened at all in that conversation.
    Mr. Charest. With all due respect, sir, that is not exactly 
what I--my testimony, I was asked that question several times 
to sort of clarify what I meant by delayed rollout, and what I 
hope I made clear, and I would like to make clear here to you, 
sir, is that I didn't know exactly what he meant. This 
conversation took place, it was probably less than two minutes, 
literally, and it was four months ago, and I didn't ask him the 
details. To me, as an IT professional over 30 years, a delayed 
rollout could have been a phased rollout, which is actually 
what I was thinking it meant, but I didn't ask and he didn't 
offer. I don't know what he meant and that is my recollection, 
though.
    Mr. Jordan. But the point is there was no delayed rollout.
    Mr. Charest. Not to my knowledge.
    Mr. Jordan. You understand that was what he wanted to do?
    Mr. Charest. I understand that he made a recommendation----
    Mr. Jordan. You agreed with that, Ms. Fryer agreed with 
that, and it wasn't done.
    Mr. Charest. No, it wasn't done.
    Mr. Jordan. Okay. Prior to coming today, did the three of 
you sit down with Ms. O'Connor and talk about what was going to 
take place at today's hearing, and discuss what kind of answers 
you might give, what kind of questions you might receive?
    Mr. Charest. Yes, sir, I did.
    Mr. Jordan. Ms. Fryer?
    Ms. Fryer. Yes.
    Mr. Jordan. Mr. Baitman?
    Mr. Baitman. Yes, I did.
    Mr. Jordan. Oh, so you worked it out after you had this 
disagreement. One said that you said delay, then you said there 
wasn't. You sat down and talked this out?
    Mr. Baitman. No, that isn't what happened.
    Mr. Jordan. Okay.
    Mr. Chairman, I see I am over time. I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Pennsylvania, Mr. 
Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    I want to start off by giving Mr. Charest and Mr. Baitman a 
chance to more fully respond. My colleague just basically said 
one of the two of you was not telling the truth, and I want to 
give you each a chance to fully talk about that.
    Mr. Baitman. So let me begin. As I said earlier, at the 
September 10th meeting there was a discussion topic about a 
beta rollout. It was simply a discussion topic. I, after the 
meeting, mentioned it to Kevin Charest. That meeting was four 
months ago. I talk to Mr. Charest 10 times a day about various 
things in an operational capacity. This wasn't a high priority 
topic and I am sure that the words could have changed over 
time.
    Mr. Cartwright. I thank you for that.
    Mr. Charest?
    Mr. Charest. Yes, sir. Basically, I don't believe that what 
I said is inconsistent with what I understand Mr. Baitman has 
been saying, which was an alternative rollout schedule. There 
are many different terms used in IT, and I may have just 
processed it that way, but fundamentally we are saying the same 
thing.
    Mr. Cartwright. And my understanding is, just to be clear, 
Mr. Baitman's recommendation had nothing to do with security, 
is that correct, gentlemen?
    Mr. Baitman. It simply had to do with my observation from 
seeing how other companies have rolled out large, complex 
systems to the public.
    Mr. Cartwright. All right.
    Now, Ms. Fryer, I didn't mean to leave you out. You are the 
chief information security officer at CMS. In that capacity you 
raised concerns in September about the status of security 
testing for the website, is that right?
    Ms. Fryer. Yes, sir.
    Mr. Cartwright. And during your interview with committee 
staff, you explained that in your roll as chief information 
security officer your job is to make recommendations to your 
boss, the chief information officer. At the time that was Tony 
Trenkle, right?
    Ms. Fryer. Yes, sir.
    Mr. Cartwright. You explained to the committee staff that 
your roll was not to make the final decision on whether to go 
forward, am I correct in that?
    Ms. Fryer. Yes, that is correct.
    Mr. Cartwright. The chief information officer, Mr. Trenkle, 
was a career executive with decades of experience, is that 
true?
    Ms. Fryer. Yes, sir.
    Mr. Cartwright. Did you have respect for Mr. Trenkle? Did 
you value his experience and his expertise?
    Ms. Fryer. Yes, I did.
    Mr. Cartwright. You told us during your interview that 
during the two years in your position Mr. Trenkle often 
accepted your recommendations, but there were other instances 
when he did not, and those were unrelated to the Healthcare.gov 
website. Am I correct in that?
    Ms. Fryer. Yes, sir.
    Mr. Cartwright. Now, in this case, Mr. Trenkle decided to 
recommend to Administrator Tavenner that she go forward with 
the Authority to Operate, but that was only after strong 
mitigation strategies were added to the ATO in order to 
mitigate against the risks you identified. Sitting here today, 
do you believe that you provided Mr. Trenkle with the 
information necessary to enable him to make an informed 
decision about moving forward?
    Ms. Fryer. Yes. I provided him the risks that were 
discovered during testing from a security perspective. And as 
the chief information officer, he takes that in and there are 
many other teams that provide other risks, there are business 
risks, mission risks, and all that is taken into consideration 
when a decision is made to put a system into operation.
    Mr. Cartwright. You said during your interview that Mr. 
Trenkle, in his capacity as chief information officer, had a 
broader perspective on various risks for the federally 
facilitated marketplace. So when he was making his evaluation, 
you were one of several sources from which he was receiving 
information, is that true?
    Ms. Fryer. Yes, that is right.
    Mr. Cartwright. Okay. Ultimately, Administrator Tavenner 
signed the Authority to Operate based on her recommendation 
from her chief information officer, Mr. Trenkle. So in your 
view of the appropriate rules and authorities of various CMS 
officials, do you believe Mr. Trenkle's actions complied with 
FISMA?
    Ms. Fryer. Again, he was the one responsible for whether or 
not a system goes into operation. I can't answer or speculate 
as to what path he took, but, you know.
    Mr. Cartwright. Well, thank you. My time is up and I thank 
all of you for coming today.
    Chairman Issa. Thank you.
    Now we go to Mr. Woodall. Mr. Woodall, we are very close on 
time, so be as pithy as possible.
    Mr. Woodall. Thank you, Mr. Chairman, as we enter hour 
three. My questions are primarily for Ms. Fryer and Dr. 
Charest. I want to thank you both for your military service, as 
well as your service.
    I understand you, Dr. Charest, have spent some time in the 
great State of Georgia over the years. We welcome you back. Any 
time you want to come back, bring your big brain and your 
pocketbook down there to spend with us.
    Mr. Charest. Thank you, sir.
    Mr. Woodall. I want to talk about a meeting that took place 
back on September 23rd. I don't believe either of you all was 
there. It was a meeting with Michelle Schneider and George 
Linares and Tony Trenkle. You prepared a slide for that 
presentation identifying some of the high risks that you had 
found, Ms. Fryer, and I want to put a slide up on the wall. I 
want to ask you to help me understand this. This is about 
Authority to Connect agreements.
    And what I want to look at is, from my reading of this 
slide, and I want you all to help me with it, it says 17 States 
did not have Authority to Connect agreements here on September 
23rd, and the recommendation was to go ahead and allow these 
States to have day one operation authority notwithstanding the 
risks that are listed below; and those risks listed below 
include things like, in most cases, one or more reviews of 
security documentation have not been completed. In other words, 
no review of security documentation has been completed. And 
even more troubling, the third risk, CMS is accepting risk on 
behalf of its Federal partners, the IRS, DHS, and SSA, which 
could have legal implications in the event of a data breach.
    Am I reading this slide correctly, to say that in many 
cases no review of security had taken place, but it was the 
decision of CMS to assume the risk to allow these 17 States to 
connect on day one? Ms. Fryer?
    Ms. Fryer. I can't speak to this slide; I did not have 
input into this slide. But I do know that CMS did establish a 
baseline of secure requirements that the States had to meet in 
order to be granted an Authority to Connect by the chief 
information officer.
    Mr. Woodall. There was such an authority in place, but what 
this slide says is in most cases not even one review had been 
completed, and we are willing to waive that responsibility and 
assume that risk for a period of 90 days. At least that is how 
I am reading this slide. But you are saying, as chief 
information security officer, you weren't involved in that 
decision-making at all?
    Ms. Fryer. No. Again, this was the marketplace security 
team that was involved in the State-based security 
requirements.
    Mr. Woodall. Dr. Charest, is that something that you have 
seen before? There is not one colleague out of 434 that has the 
authority to accept risk on my behalf and on behalf of my 
constituents. This seems incredibly unusual, CMS is accepting 
risk on behalf of the IRS and the Department of Homeland 
Security. Is this something that you have seen before? We have 
talked about best practices a lot while we have been here. This 
seems alarming to me. Am I misreading what I am seeing on this 
slide?
    Mr. Charest. Well, sir, what I can tell you is I have not 
seen this other than it was shown to me during my transcribed 
interview, but basically this is a PowerPoint presentation, so 
when I look at that, I am assuming, and I would have to assume 
it, that some discussion between CMS and those entities it is 
indicating it is accepting risk for took place.
    Mr. Woodall. Again, we have talked a lot about best 
practices today. Is it best practices to, again, while formal 
testing has not been completed, while no site visits have 
occurred, and while, in most cases, not even one review of 
security documentation has been completed and weaknesses are 
not known, is it best practices to allow folks to connect to 
CMS, HHS, IRS, and DHS, or was this an extraordinary exception; 
and if we go back and review another 10 years of documentation 
we are likely not to see anything else like this again? Can 
you? Because you are the experts.
    Mr. Charest. I have not seen it before, sir.
    Mr. Woodall. Ms. Fryer?
    Ms. Fryer. And, again, it is best practices, and I know CMS 
had baseline secure requirements in place for the State. Again, 
I can't speak to, you know----
    Mr. Woodall. Now, Mr. Baitman, had you been in this 
meeting, instead of Mr. Trenkle, at the time, would this have 
raised red flags for you?
    Mr. Baitman. Yes. I didn't have the background on this, so 
I wouldn't be able to answer that. I can say that all decisions 
involve some degree of risk, and there probably were 
discussions, as Mr. Charest said, that mitigated that risk.
    Mr. Woodall. I wish we had time to talk about whether 
October 1 really was a legal deadline or whether it was just a 
politically desirable deadline, and whether we needed to assume 
those risks on behalf of the American people. But as you said 
earlier, Mr. Baitman, we are going to do more of these rollouts 
in the future, and whatever we can learn from this one will no 
doubt make us better next time around. Thank you all for being 
here.
    Mr. Chaffetz. [Presiding.] I thank the gentleman. I now 
recognize myself for five minutes as we wrap up.
    Mr. Baitman, is it accurate that you didn't make a 
recommendation of a limited launch of Healthcare.gov until 
after you were aware of significant problems with the 
development of Healthcare.gov and after you heard of concerns 
with security testing?
    Mr. Baitman. I made the recommendation--it wasn't a 
recommendation, it was a discussion topic, on September 10th, 
and I hadn't been directly involved. We have a federated 
structure, so I wasn't directly informed of any specific issues 
other than----
    Mr. Chaffetz. Let me keep going. Mr. Baitman, do you, or 
anybody, ever recall a time when an ATO was elevated to an 
administrator of an agency because both the chief information 
security officer and the chief information officer refused to 
sign the ATO?
    Mr. Baitman. I am not aware of any.
    Mr. Chaffetz. Ms. Fryer?
    Ms. Fryer. No, sir.
    Mr. Chaffetz. Mr. Charest?
    Mr. Charest. I am not aware either.
    Mr. Chaffetz. Do any of you ever recall reviewing an ATO 
that did not list a single specific security that was 
identified by the security control assessment? Anybody ever 
recall that?
    Mr. Charest. I am sorry, sir, I am not sure I understand 
the question.
    Mr. Chaffetz. Security risk, I should say. Do any of you 
ever recall reviewing an ATO that listed the main risk for 
proceeding as a lack of complete security testing? Ms. Fryer?
    Ms. Fryer. We do have systems that have indicated that the 
security testing, there were issues raised during security 
testing and it is a risk. Normally, it is----
    Mr. Chaffetz. Any others that were launched without doing 
the security risk assessment?
    Ms. Fryer. No, sir.
    Mr. Chaffetz. Let me ask you when it was launched, Ms. 
Fryer, what percentage of the data transfer to the local 
servers was done over a secure socket layer?
    Ms. Fryer. I can't answer that question; I was not involved 
in the operational day-to-day security and the details of that.
    Mr. Chaffetz. But you are the chief security officer, are 
you not? What percentage today of the data transfer is done 
over a secure socket layer?
    Ms. Fryer. Again, that is the operational. I am not 
involved in the development and implementation of the----
    Mr. Chaffetz. But you are in charge of the review of it, 
correct?
    Ms. Fryer. I am in charge of the review of the findings 
during the security control assessment, the independent 
security control assessments that are conducted, yes.
    Mr. Chaffetz. Are any of you aware what percentage of the 
data, when it goes from the computer to the server, is done 
over a secure socket layer? None of you know the answer to that 
question? How much of this data that is transferred is 
encrypted?
    Ms. Fryer. The data is encrypted. It is a requirement to be 
encrypted.
    Mr. Chaffetz. What percentage of the data is encrypted?
    Ms. Fryer. It is encrypted.
    Mr. Chaffetz. What percentage of it?
    Ms. Fryer. It would be 100 percent of the data.
    Mr. Chaffetz. But you just said you don't know what 
percentage is done over an SSL.
    Ms. Fryer. You are asking what percentage during testing.
    Mr. Chaffetz. No. I want to know of the actual live site, 
when somebody in Missouri signs up and they are sending data 
information, is it all done over an SSL?
    Ms. Fryer. They don't send the information over--it depends 
on if it is a State-based marketplace or they access----
    Mr. Chaffetz. If you are using Healthcare.gov, is that 
information encrypted or not?
    Ms. Fryer. Yes.
    Mr. Chaffetz. What percentage of it?
    Ms. Fryer. It is encrypted, it is 100 percent.
    Mr. Chaffetz. Was it on day one?
    Ms. Fryer. Yes. That was the requirement to be in place.
    Mr. Chaffetz. But you don't know what percentage was done 
over a secure socket layer, which is somewhat similar to saying 
is it encrypted or not, and you said you didn't know.
    Ms. Fryer. Again, I don't know the technology; I am not 
involved in the operational day-to-day security. I have almost 
200 FISMA systems in CMS. That is why we have information----
    Mr. Chaffetz. So when I have questions about Java script 
and how you encrypt some of that, you wouldn't know the answer 
to that.
    Ms. Fryer. I know the technical, I don't know of every 
system in CMS. I don't know the technical----
    Mr. Chaffetz. We are talking about Healthcare.gov. It is 
probably the most visible--who does know the answer to that 
question?
    Ms. Fryer. The information systems security officer is the 
group for the day-to-day development and implementation of 
secured requirements for Healthcare.gov.
    Mr. Chaffetz. It scares the living daylights out of me that 
none of the three of you know the definitive answer about SSLs. 
If anybody else cares to offer anything, we have a vote on the 
floor. I am about to close this hearing. Does anybody else have 
something to offer regarding that point? Listen, we need this 
stuff to be encrypted, 100 percent of it, 100 percent of the 
time.
    I thank you all for your participation today. This hearing 
is adjourned.
    [Whereupon, at 11:49 a.m., the committee was adjourned.]



                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
